U.S. ELECTION
ASSISTANCE
COMMISSION




AGENCY FINANCIAL
REPORT




November 15, 2010
                                                      Election Assistance Commission




ABOUT THIS REPORT


For FY 2010 reporting purposes, the U.S. Election Assistance Commission (EAC) has
again elected to submit an Agency Financial Report, with an Annual Performance Report
and Citizens’ Report along with the Congressional Budget Justification. The reports are
targeted to the Office of Management and Budget (OMB), the Public, and Congress,
respectively. The AFR allows EAC to focus on and lay out its financial position at this
time, while providing summary performance data. A Citizen’s Report and a combined
Annual Performance Report/Congressional Budget Justification will follow on February
15, 2011 per guidance in OMB Circular A-136 Financial Reporting Requirements.




            Information about EAC’s programs is available at www.eac.gov.
                                                       Election Assistance Commission




MESSAGE FROM THE CHAIR
I am pleased to present the U.S. Election Assistance Commission (EAC) FY 2010
Annual Financial Report. The report describes EAC’s financial results over the past year
as it pursued its mission to assist the effective administration of Federal elections. The
report highlights efforts to strengthen internal controls and financial management
activities. This is the third year EAC has undergone a financial statement audit per the
Accountability of Tax Dollar Act of 2002, and the second year EAC is participating in
the pilot performance reporting project as described in OMB Circular A-136 on Financial
Reporting Requirements in place of the Performance and Accountability Report. EAC
presents summarized performance data in this report, and will provide detailed data in
February in conjunction with the FY 2012 Congressional Justification.

During FY 2010, to address issues in the FY 2009 financial statement audit, EAC
finalized policies and procedures in the areas of general administration, travel, and
information technology. During FY 2011, EAC plans to finalize remaining policies and
procedures discussed in this document.

In the program areas during FY 2010, EAC made a great deal of progress in achieving
the goals described in its Strategic Plan, which is based on the mandates of the Help
America Vote Act (HAVA) of 2002:

Communications & Clearinghouse
   Launched a new website with powerful search and improved navigation tools.
   Posted videos on its website and YouTube on Contingency Planning, Polling
     Place Management, the EAC Voluntary Voting System Testing and Certification
     Program, and Making Polling Places Accessible.

Grants Management
    Awarded 8 Mock Election grants that in conjunction with the current active grant
       portfolio will help educate approximately 850,000 students about the electoral
       process; awarded 15 Help America Vote College Program grants to recruit
       students to serve as poll workers; and awarded a $500,000 Military Heroes grant
       to improve voting accessibility for recently injured military personnel.
    In coordination with the Testing and Certification division, conducted a
       roundtable discussion on research, development and implementation of
       technologies and other assistance to make voting more accessible.
    Adopted Maintenance of Effort Policy to facilitate State compliance with the
       maintenance of expenditure (MOE) requirement in HAVA of 2002.
                                                         Election Assistance Commission




Research, Policy and Programs
    Issued Election Management Guideline chapters and Quick Start Guides on
       Technology in Elections, Elections Office Administration, Accessibility, Building
       Community Partnerships, Canvassing and Certifying an Election, Communicating
       with the Public, Conducting a Recount, and Provisional Ballots.
    Released the mandated report Free Postage for the Return of Voted Absentee
       Ballots.
    Conducted a working group on Administering Elections in Rural and Urban
       Areas.
    Initiated the public comment process on proposed changes to incorporate HAVA
       requirements into the National Voter Registration Act regulations.
    Translated the National Mail Voter Registration Form into five Asian languages.
    Expanded the translated versions of the Voter’s Guide to Federal Elections to
       include four Native American languages.
    Partnered with the Office of Citizenship within U.S. Citizenship and Immigration
       Services to make the Voter’s Guide available to new citizens in the U.S.
       naturalization ceremony packet.

Voting Systems Testing and Certification
    Certified a fourth voting system in six months at a cost of less than $1 million.
    Issued a report to Congress on progress in establishing guidelines for remote
       electronic voting systems for absentee voters.
    Held a joint workshop with the Federal Voting Assistance Program and the
       Commerce Department's National Institute of Standards and Technology on
       Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA) remote
       electronic absentee voting systems; and jointly completed a UOCAVA Pilot
       Program Testable Requirements document.
    A revision of the 2005 VVSG Version 1.1 addressing comments received during
       the public comment period ending September 28, 2009 was completed. The
       revised version and policy decisions were presented to the Commissioners and
       discussed at a public meeting in September 2010.

EAC continues to improve its programs and operations, strengthening internal controls,
financial management, and information technology across the agency. Additional
information on actions for continued improvement can be found in Section I.E. of the
Management Discussion and Analysis which follows.

The financial and performance data in this report is reliable and complete with one
material weakness related to the finalization of policies and procedures. The financial
statements being submitted in this report are, to the best of my knowledge and belief,
accurate and reliable.

In FY 2011, we look forward to awarding grants for voting system logic and accuracy
testing and disability research totaling $5.0 million, improving the quality of technical
assistance to recipients of Help America Vote Act funds, improving the agency’s
                                                       Election Assistance Commission

information technology infrastructure, and continuing to provide materials to election
officials to assist with the administration of Federal elections.




Donetta Davidson, Chair
November 15, 2010
                                                 Election Assistance Commission



TABLE OF CONTENTS

SECTION I - Management Discussion and Analysis…………………………... 1

I.A Background, Vision, Mission and Organization Structure……………………. 1
  Funding……….. …………………………………………………………………. 3
  Organization by Program……………….…………………………………………5
  Organization Chart……………………………………………………………….. 7

I.B Performance Goals, Objectives, and Results…………………………………. 7
  How EAC Assesses Performance………..………………………………………. 8
  Strategic Goal Structure………………………………………………………….. 8
  Performance Data Collection and Validation……………………………….……. 18
  Summary Performance Information.…………………..…………………………. 18
  Program Performance Indicators…………………………………………………. 18
  Portfolio Analysis………………………………………………………………… 20

I.C. Financial Results……………………………………………………………… 20
  Budgetary Resources………………………………………………………………20
  Financial Position………………………………………………………………….22
  Limitations of the Financial Statements………………………………………….. 24

I.D. Analysis of Controls, Management Systems, and Legal Compliance……….. 24
  Federal Manager’s Financial Integrity Act……………………………………….. 25
  Federal Financial Management Improvement Act……………………………….. 30
  Accountability of Tax Dollars Act of 2002………………………………………. 30
  Federal Information Security Management Act………………………………….. 30
  Inspector General Act Amendments of 1988…………………………………….. 30
  Annual Assurance Statement on Internal Control...……………………………… 31

SECTION II – Financial Section………………………………………………… 32

II.A. Message from the Chief Financial Officer………………………………….. 32
II.B. Inspector General’s Assessment……………………………………………… 33
II.C. Independent Auditor’s Report……………………………………………….. 35
II.D. Financial Statements…………………………………………………………. 46
II.E. Notes to the Financial Statements……………………………………………. 50
II.F. Required Supplementary Stewardship Information………………………….. 64

SECTION III - Other Accompanying Information……………………………. 66

III.A. IG Assessment of Most Serious Management Challenges Facing EAC……. 67
III.B. EAC Response to the Most Serious Management Challenges……………… 78
III.C. Improper Payments …………………………………………………………. 81
III.D. Summary of Financial Statement Audit and Management Assurances…….. 81
                                                                Election Assistance Commission




SECTION I
Management Discussion and Analysis
Management Discussion and Analysis (MD&A) is presented in accordance with Statement of
Federal Financial Accounting Standards (SFFAS) 15. The MD&A is intended to provide a clear
and concise description of the agency’s mission and organizational structure; high-level
discussion of key performance goals, results and measures; analysis of financial statements;
systems, controls, and legal compliance (i.e., Management Assurance signed by the Agency
Head); compliance with laws and regulations; and actions taken or planned to address problems.
It provides a balanced analytical assessment, with both positive and negative information, of key
program and financial performance. The MD&A is a vehicle for communicating insights about
the agency, its operations, programs, successes, challenges and future outlook. Contents of this
report and the MD&A are in conformance with Office of Management and Budget (OMB)
Circular A-136 Financial Reporting Requirements.

I.A BACKGROUND, VISION, MISSION AND ORGANIZATIONAL STRUCTURE

In October 2002, Congress passed the Help America Vote Act (HAVA) of 2002. The law
recognized the need for States to invest in their election infrastructure and set out comprehensive
programs of funding, guidance, and ongoing research. To foster those programs and to promote
and enhance voting for United States citizens, HAVA established the Election Assistance
Commission (EAC). The vision for EAC, according to the Strategic Plan 2009-2014, adopted
March 2009, is to lead election reform that reaffirms the right to vote and to have all eligible
votes counted accurately.

EAC is an independent, bipartisan agency. Four full-time Commissioners, appointed by the
President and confirmed by the U.S. Senate, and three Federal advisory committees, the
Standards Board, Board of Advisors, and Technical Guidelines Development Committee, guide
the EAC. Its mission is to assist in the effective administration of Federal elections. EAC is
statutorily required to:

      Create a clearinghouse of information for election officials and the public;
      Distribute and monitor HAVA funds to States for election administration improvements;
      Issue, periodically review and modify, as necessary, Voluntary Voting System Guidelines
       (VVSG);
      Accredit voting system test laboratories and certify voting equipment;
      Conduct periodic studies of election administration issues;
      Establish best practices and guidelines on election administration for State and local
       election officials;
                                                                Election Assistance Commission

      Maintain the national voter registration form developed in accordance with the National
       Voter Registration Act (NVRA) of 1993;
      Provide Congress with a bi-annual report to assess the impact of the NVRA.

The Standards Board and the Board of Advisors provide advice and guidance to EAC on
Voluntary Voting System Guidelines (VVSG) and other election administration issues. In
addition, the Technical Guidelines Development Committee (TGDC) assists EAC in the
preparation of the VVSG. The VVSG sets the standards against which voting systems are tested.
The Director of the National Institute of Standards and Technology (NIST) of the U.S.
Department of Commerce serves as the Chair of the TGDC and provides technical support to the
Committee. Additionally, HAVA specifies that NIST provide recommendations to EAC
regarding voting system test laboratories. Since Fiscal Year 2004, EAC’s annual appropriations
have included funds for NIST support.

In Fiscal Years 2003 and 2004, Congress appropriated nearly $3 billion in Federal financial
assistance for payments to States under Titles I and II of HAVA. States received the funds to
upgrade their voting systems, establish a statewide voter registration database, train election
officials, and educate voters. In Fiscal Year 2003, General Services Administration (GSA)
distributed HAVA funds to the fifty States, Guam, Puerto Rico, the U.S. Virgin Islands,
American Samoa and the District of Columbia on EAC’s behalf.

The Senate confirmed four Commissioners in December 2003 and EAC began operations in
January 2004, within ten months of the date mandated by HAVA. The Agency’s Fiscal Year
2004 operating budget was $1.7 million. At the close of the fiscal year, EAC had a staff of 18.
EAC’s focus in 2004 was to assemble staff, obtain office space, arrange for administrative
support from the GSA, establish a website, start election administration clearinghouse
operations, and distribute Federal financial assistance to the States. In FY 2004, EAC also
appointed a statutorily-required General Counsel.

During Fiscal Year 2005, EAC appointed its other statutorily-required position, the Executive
Director, and an interim Inspector General. EAC’s focus in subsequent years was on adopting
the VVSG, completing required research to promote effective Federal elections and present key
data on election practices and voting, instituting a voting system testing and certification
program, auditing State use of HAVA funds, and providing information on improving elections
to its stakeholders.

Since its inception, EAC has received $2.6 billion in requirements payments, $25.9 million in
discretionary grant funds for Poll Workers, Mock Elections, Election Data Collection, Voting
Technology Improvement Research and Equipment and Pre-Election Logic and Accuracy
Testing and Post-Election Verification and transferred $21.3 million to NIST as illustrated in the
following tables.




                                                2
                                                                                       Election Assistance Commission

Funding


                                          Enacted Appropriations by Fiscal Year
                                                            (dollars in thousands)
                                 2003            2004              2005      2006      2007      2008      2009      2010      Total
EAC (FY 2003–2010)
 EAC Salaries & Expenses
    Operations                   $2,000            $1,674     1
                                                                  $11,110   $10,986   $11,313   $12,330   $12,909   $13,409     $75,731

    Mock Election Grants                                                                           200       300       300          800

    Poll Worker Grants                                                         300                 750       750       750        2,550

 Transfer to NIST                                                   2,778     2,772     4,950     3,250     4,000     3,500      21,250

 Election Reform Grants
                                          2
    Requirements Payments       830,000         1,491,150                                       115,000   100,000    70,000    2,606,150

     Poll Worker Grants           1,500                                                                                           1,500

     Foundation                   1,500                                                                                           1,500

    Voting Tech. Research                                                                                   5,000     3,000       8,000

    Testing & Verification                                                                                  1,000     2,000       3,000

 Election Data Collection                                                                        10,000                          10,000
   TOTAL EAC                    835,000         1,492,824          13,888    14,058    16,263   141,530   123,959    92,959    2,730,481
GSA (FY 2003)

 Section 101 and 102            649,500                                                                                         649,500

 Administrative Expenses            500                                                                                             500
   TOTAL GSA                    650,000                                                                                         650,000
 TOTAL EAC & GSA                                                                                                              $3,380,481

1/ Includes $481,092 transferred from the Federal Election Commission
2/ Carried forward to FY 2005




                                                                   3
                                                                                 Election Assistance Commission


                 Status of Help America Vote Act Authorization versus Appropriations
                                                        (in whole dollars)
                                                                                               Appropriated
                                                                       Authorized              FYs 2003-2010         Remaining
GSA (FY 2003)
Election Administration Improvement (Section 101)                      $324,750,000               $324,750,000

Punch Card/Lever Machine Replacement (Section 102)                      324,750,000                 324,750,000

Administrative Expenses for 101 and 102                                       500,000                   500,000
EAC (FY 2003 – 2010)

Requirements Payments (Section 251)                                   3,000,000,000      **       2,606,150,000      393,850,000
Voting Technology Improvement Research Grants (Section
271)                                                                     20,000,000                   8,000,000        12,000,000
Equipment and Technology Testing Pilot Program (Section
281)                                                                     10,000,000                                    10,000,000
Pre-Election Logic and Accuracy Testing & Post-Election
                                                                                         1,4
Verification                                                                 3,000,000                3,000,000                      -
                                                                                         2
Operations (Section 210)                                                100,331,108                 100,331,108                      -
                                                                                         3
Election Data Collection Grants                                          10,000,000                  10,000,000                      -
National Student and Parent Mock Election Organization
(Section 295)                                                                 200,000    **                               200,000

Poll Worker Grants (Section 501)                                             5,000,000   **           1,500,000         3,500,000

Help America Vote Foundation (Section 601)                                5,000,000      **          1,500,000         3,500,000
                                                            Total    $3,803,531,108             $3,380,481,108      $423,050,000
1/ Authorized by P.L. 111-8
2/ $30 million per HAVA, balance per appropriations. Includes $2.55 million Poll Worker grants and $800,000 Mock Election Grants
3/ Authorized by P.L. 110-161
4/ Authorized by appropriations
**Plus such sums as may be necessary in succeeding years
Note: excludes $140 million plus such sums authorized for HHS under Disability Access Section 261 and Participation Section 291,
$15 million appropriated to GSA in FY 2003 for Title I, and $5 million plus such sums for the Help America Vote Foundation Section
601




                                                            4
                                                                  Election Assistance Commission

EAC Organization by Program

EAC has organized its offices around the goals in the Strategic Plan. Below are brief
descriptions of the four offices responsible for implementing the Strategic Plan programmatic
goals. Following the descriptions is EAC’s organization chart.

Communications and Clearinghouse

The Communications and Clearinghouse division is primarily responsible for external
communications, as well as the tools used to provide information to the public. Areas of
responsibility include:

          EAC Web site and Clearinghouse
          Media inquires
          External communications
          Congressional relations
          The Freedom of Information Act
          National Archives and Records Act
          Editorial support: press releases, speeches, Congressional testimony

The agency’s website, www.eac.gov, is the primary communications tool. EAC.gov contains
thousands of documents with information about voting system test plans, agency
correspondence, testimony from EAC monthly public meetings and hearings, and external and
internal communications such as press releases, informational videotapes, research, data and
program-related information. EAC’s website features a user-driven notification system, allowing
visitors to customize how they receive information. Users can customize their online experience
by signing up for automatic e-mail alerts on a variety of election topics and events, including
public meetings, advisory board meetings, reports, policies and agency news. These alerts can be
received in real time on a daily or weekly basis.

Grants Management

The Grants Management Division:

          Issues guidance and conducts trainings on the administration and use of HAVA funds;
          Provides technical assistance to States on administering Federal funds;
          Awards and monitors discretionary grants programs including: Help American Vote
           College Program, Help American Vote Mock Election Program, Election Data Collection
           Grant Program, Military Heroes Initiative, Voting Systems Pre-Election Logic and
           Accuracy Testing and Post-Election Audit Initiative and Accessible Voting Technology
           Initiative.
          Processes and disburses payments to States and discretionary grant recipients;
          Tracks the submission of and reviews the content of financial and performance reports
           submitted by States and discretionary grant recipients;
          Reviews audit reports and resolves findings applicable to EAC programs;
          Reviews amended State Plan submissions;


                                                   5
                                                                 Election Assistance Commission

       Drafts advisory opinions for Commission approval and issuance.

Research, Policy and Programs

The Research, Policy and Programs division:

       Administers the Election Management Guidelines Program to help election officials
        promote secure, accurate, and accessible elections by providing information on topics
        such as Ballot Design, Contingency Planning, Managing Change in an Election Office,
        Media and Public Relations, and Developing an Audit Trail for the verification of votes;
       Manages the Language Accessibility Program to provide informational materials on the
        Federal election process and election terminology in languages other than English,
        translates the National Mail Voter Registration Form, and gathers information from
        working groups to address the election needs of voters with limited or no English
        proficiency;
       Provides materials to voters to facilitate successful participation in Federal elections such
        as registering to vote;
       Conducts election research on mandated topics.

HAVA mandates that EAC issue studies on the impact of free absentee ballot return postage on
voter participation, electronic voting and Uniformed and Overseas Citizens Absentee Voting
Act voters, the feasibility of alternative voting methods, the voting experiences of first-time
voters who register to vote by mail, and the feasibility and advisability of identifying voters by
Social Security Numbers.

Voting System Testing and Certification

Under the Help America Vote Act, EAC accredits voting system test laboratories and certifies
voting equipment, marking the first time the Federal government has offered these services to the
States. Participation by States in the program is voluntary. Staff works with NIST to evaluate
and accredit voting system test laboratories and the management of the voting system
certification process.

The Testing and Certification (T&C) division:

       Assists States with voluntary certification of their systems;
       Supports local elections officials in the areas of acceptance testing and pre-election
        system verification;
       Promotes quality control in voting system manufacturing;
       Provides procedures to the voting system manufacturers for the testing and certification
        of voting systems to specified Federal standards consistent with the requirements of
        HAVA Section 231.

EAC’s voting system certification program establishes accountability through its Quality
Monitoring Program which ensures, through various check points, that the voting systems used
in the field are in fact the same systems EAC has certified. For instance, under the program,



                                                  6
                                                               Election Assistance Commission

EAC has the ability to conduct site visits to production facilities to determine whether systems
produced are consistent with those that have received EAC certification. In addition, EAC
collects reports from election officials regarding voting system anomalies. After reviewing the
reports, EAC disseminates the information to election officials. Furthermore, upon invitation or
with permission from election officials, the EAC conducts reviews of systems that are in use in
the field.

More information about EAC’s Voting System Certification and Testing Program is available in
EAC’s Frequently Asked Questions on eac.gov.




*Other than full time permanent staff


I.B. PERFORMANCE GOALS, OBJECTIVES AND RESULTS

EAC formalized its planning, reporting and execution activities with its first five year Strategic
Plan 2009-2014. The plan was reviewed by the Office of Management and Budget, and
presented to EAC’s Board of Advisors and Standards Board for comment, as required by HAVA.
EAC adopted the Plan in March 2009.


                                                7
                                                                 Election Assistance Commission

How EAC Assesses Performance

EAC has five strategic goals:

       1. Communicate timely and accurate information on the effective administration of
          elections for Federal office and on the operations and services offered by EAC.
       2. Deliver and manage Federal funds effectively.
       3. Identify and develop information on areas of pressing concern regarding the
          administration of elections for Federal office, issue recommended improvements,
          guidance, translations, and best practices as required by HAVA, and carry out
          responsibilities under the National Voter Registration Act.
       4. Build public confidence in elections by testing and certifying voting systems to
          improve system security, operation, and accessibility.
       5. Achieve organizational and management excellence.

The EAC Strategic Plan objectives listed below describe in general terms the results needed to
accomplish its Strategic Goals. Outcomes measure the effect program outputs have on their
stakeholders. Outputs are quantifiable targets that directly measure the results of a program. A
program may have multiple outputs but each output is associated with one program.
Performance measures are quantifiable, documentable, representations of a capacity, process or
outcome that is relevant to the assessment of performance.

Strategic Plan Goal 1: Communicate timely and accurate information on the effective
administration of elections for Federal office and on the operations and services offered by
EAC.

         Outcome: The Congress, Federal agencies, State and local election officials and
         the public receive reliable, accurate, and non-partisan information about
         administering, conducting and participating in Federal elections and how,
         where, and when Americans vote.

Goal 1’s aim of communication of timely and accurate information is the responsibility of the
Communications and Clearinghouse division.

Goal 1 FY 2010 Accomplishments

In 2010, the Communications and Clearinghouse division unveiled a new website enabling EAC
to receive more public input and feedback, increase transparency, and add more information than
ever about EAC programs and operations. The new website features leading-edge search,
navigation and content-delivery tools that transform the site into a more modern, dynamic and
transparent source of information for the public and election officials. The new tools enhance
users’ ability to find information more efficiently through a powerful search device that provides
more qualified, relevant results as well as options for sorting and filtering results. Site searches
are also enhanced by the new streamlined mouse-over navigation bar, which allows users to
quickly scan the contents of the site without clicking through to subsequent pages.




                                                 8
                                                                Election Assistance Commission

EAC’s most commonly requested materials, such as the National Mail Voter Registration Form,
voter guides, election management guidelines, and National Voter Registration Act reports are
just one click away. The new Election Resource Library now holds all of these materials for easy
searching, sorting and browsing.

The site also provides several mechanisms through which the public can provide direct feedback
to EAC on agency activities and operations. For instance, the public can rate and comment on
nearly 200 EAC reports, policies, manuals and election management guidelines in the Election
Resource Library.

The new website will also play a major role in the efforts to deliver information to voters to help
them have a successful experience on Election Day during the 2010 Federal election year. The
Resources for Voters will provide information on poll worker requirements, registration
information, provisional voting requirements, and other election administration information such
as early voting deadlines.

In FY 2010, EAC contracted for new educational videos that will provide further information to
the public about the EAC. The Communications Division is currently producing four of these
videos to inform the public about key election administration procedures. Topics include
information for student voters, pre-election and post-election activities, about the EAC and
registering to vote.

Communications staff completed a draft Open Government Policy in accordance with Federal
requirements and created the companion www.eac.gov/open site to notify the public about
EAC’s open government initiatives. In addition, EAC’s new Public Comment section at eac.gov
makes it easier for the public to keep track of draft EAC policies on which the agency is seeking
public input. The public may also submit general comments at www.eac.gov/contact.

Also in FY 2010, Communications staff proposed a National Clearinghouse for Elections as the
central location for information about elections pursuant to HAVA Section 202 on duties of the
Commission and EAC operations and initiatives. The proposal included a recommendation for
an initial pilot program to be reviewed in FY 2011. The EAC website, eac.gov, already has the
capability to support the National Clearinghouse for Elections.

To further educate the public about EAC’s Voting System Testing and Certification Program,
Communications staff developed, built and populated a map categorizing States based on state
laws regarding voting system certifications, as well as the location of EAC-certified systems.
Users will be able to click through for historical records about the voting system, including
System Advisory Alerts, draft and final test plans, correspondence and basic information about
the voting system manufacturer. (The EAC-certified systems in the field map appear in the
Strategic Plan Goal 4 Accomplishments section of this document.)

Strategic Plan Goal 2: Deliver and manage Federal funds effectively.

         Outcome: States and other recipients promptly and accurately receive Federal
         funds administered by EAC and use the funds appropriately to improve the
         administration of elections for Federal office.


                                                 9
                                                                Election Assistance Commission

Goal 2 is administered by the Grants Management division and the Office of the Inspector
General.

Goal 2 FY 2010 Accomplishments

In FY 2010, Public Law 111-117 included $70.0 million for HAVA Section 251 payments. The
funds are distributed according to a formula based on the voting age population of the State per
the last Census and the total voting age population of all States. In order to draw the funds, the
States certify that they are in compliance with applicable laws and requirements per HAVA
Section 253.

A State may use a requirements payment to carry out activities to improve the administration of
elections for Federal office outside of the activities listed under HAVA Title III if the State per
Section 251 certifies that the State has implemented the requirements of Title III, or the amount
it will spend on other activities will not exceed an amount equal to the minimum payment
amount applicable to the State under section 252. Title III includes voting system standards,
voting information requirements, provisional voting, statewide voter registration lists, and
identification requirements for voters who register by mail. States may also use requirements
payments to improve the administration of Federal elections. Each year, EAC reports to
Congress on how the States have spent HAVA funds. EAC paid $29.7 million of the $70.0
million awarded in FY 2010, which represents all funds requested by the states by September 30,
2010.

In FY 2010, EAC awarded a total of $750,000 in College Poll Worker grants to 14 institutions of
higher education and one nonprofit organization to recruit students to serve as poll workers in the
2010 Federal election. As of FY 2010, EAC has awarded 89 grants totaling $3.1 million to
recruit and train college poll workers since the College Program was established in 2004.


                              FY 2010 College Poll Worker Grant Recipients

                       Alverno College, Milwaukee, Wisconsin
                       Benedictine University, Lisle, Illinois
                       Central Connecticut State University, Hartford, Connecticut
                       College of the Canyons, Santa Clarita, California
                       Harris-Stowe State University, St. Louis, Missouri
                       Keystone College, La Plume, Pennsylvania
                       Kids Voting of Central Ohio, Columbus, Ohio
                       Kutztown University, Kutztown, Pennsylvania
                       Lourdes College, Sylvania, Ohio
                       Marshall-Wythe Law School Foundation, Williamsburg, Virginia
                       Morehouse College, Atlanta, Georgia
                       Southern Utah University, Cedar City, Utah
                       Suffolk University, Boston, Massachusetts
                       University of Tennessee, Knoxville, Tennessee
                       University of Rochester, Rochester, New York



                                                10
                                                               Election Assistance Commission

In FY 2010, EAC awarded eight Mock Election Program grants totaling $300,000 to six
government agencies, one civic group and one nonprofit organization with the grants aimed at
operating programs of simulated elections for high school students, with voting equipment,
ballots and poll workers. The Mock Election Program grants are authorized under HAVA
Section 295. As of fiscal year 2010, EAC has awarded grants totaling $998,820 to organizations
under this program since the Mock Election program was established in 2004.

The grants allow students to become familiar with voting processes and technologies so that
when they become eligible to vote they will be more comfortable with their civic duties. The
2010 winners, chosen from a highly competitive pool of 34 applicants that sought a combined
$1.2 million, will use a wide range of creative approaches to engage high school students. EAC
was particularly interested in funding opportunities that promote the use of voting machines
through partnerships with local election officials. The schools are located in rural areas,
including American Indian reservations, as well as urban locales.

The grants will support mock elections in 14 States and territories and along with the continuing
grants will educate more than 850,000 students about the electoral process during the 2010 mid-
term election cycle. The competition was open to State and local election offices, and regional
and national nonprofit organizations, including faith-based, community-based, and tribal
organizations. Winners were selected through an independent review process that examined
each applicant’s level of experience, and their management and conceptual approaches for
meeting program goals.


                                 FY 2010 Mock Election Grant Recipients

                      Office of the Secretary of State of the Commonwealth of Kentucky,
                      Franklin, Kentucky
                      Polk County Auditor’s Office, Des Moines, Iowa
                      Office of the Washington Secretary of State, Olympia, WA
                      State of Montana Secretary of State, Helena, Montana
                      League of Women Voters of Oregon Education Fund, Salem, OR
                      State of Rhode Island and Providence Plantations, Providence, RI
                      Michigan Government Television, Lansing, Michigan
                      Seminole County Supervisor of Elections, Sanford, Florida

In November 2009, EAC provided training via a webinar to States on using the Standard Form
425 Federal Financial Report. The webinar is available on eac.gov. On February 1, 2010, the
division released the EAC Annual Report on Grant programs as of September 30, 2008. The
Report was released along with the FY 2011 Congressional Budget Justification and FY 2009
Annual Performance Report.

Strategic Plan Goal 3: Identify and develop information on areas of pressing concern
regarding the administration of elections for Federal office and issue recommended
improvements, guidance, translations, and best practices as required by HAVA, and carry
out responsibilities under the National Voter Registration Act.



                                               11
                                                                 Election Assistance Commission

         Outcome: As a result of this goal: 1) the election community and other key
         stakeholders improve the administration of elections for Federal office on the
         bases of pertinent, impartial, timely, and high-quality information,
         recommendations, guides and other tools on election and voting issues and 2)
         eligible citizens use the mail voter registration application to register to vote,
         register with a political party, or report a change of name, address, or other
         information.

Goal 3 is administered by the Research, Policy and Programs division.

Goal 3 FY 2010 Accomplishments

In FY 2010, the Research, Policy and Programs (RPP) division developed a listing of potential
research projects, policy and program initiatives including timelines, to guide staff work through
2012. Progress has been made toward completing several projects noted in the research
schedule, many of which are mandated by HAVA and/or authorized by Congress. The list will
continue to be revised in accordance with EAC and/or Congressional priorities.

Research efforts continued on the HAVA-mandated study “Recounts and Contests”, and a
working group convened and preliminary research began on a study of “Election Administration
in Urban and Rural Settings”.

Research work completed in FY 2010 includes:

      Reports to Congress on the findings of the 2008 Election Administration and Voting
       Survey and the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA).
      The three-year National Academy of Sciences study on Statewide Voter Registration
       Databases.
      A study evaluating stakeholder use of EAC educational products designed to improve the
       administration of elections for Federal office.
      A report to Congress on the study of use of Free or Reduced Postage for the Return of
       Voted Absentee Ballots.
      Selecting a contractor to collect and analyze data for the 2010 Election Administration
       and Voting Survey.

EAC’s Strategic Plan includes reissuing regulations pertaining to the National Voter Registration
Act (NVRA) of 1993. A Notice of Proposed Rulemaking related to NVRA was developed and
subsequently published in the Federal Register on August 9, 2010. The Notice proposes the
incorporation of HAVA requirements into the NVRA regulations and asks for public comment
on these proposals, and on other proposals related to the National Mail Voter Registration Form.
The period for commenting on the proposed rules ends in November 2010. EAC has held three
public hearings on the Notice of Proposed rulemaking in Orlando, FL, Washington, DC and
Pasadena, CA.

The Policy Department of RPP completed research on a compendium of State laws applicable to
provisional voting and began work on voluntary guidance related to provisional voting that will
be provided to the States in early 2011.


                                                 12
                                                                Election Assistance Commission

The RPP Program Department’s Election Management Guidelines program released three new
Quick Start Management Guides in 2010 on Technology in Elections, Elections Office
Administration, and Accessibility. In addition, the Department created and released eight new
Election Management Guidelines chapters:

        Building Community Partnerships
        Canvassing and Certifying an Election
        Communicating with the Public
        Conducting a Recount
        Provisional Voting
        Technology in Elections
        Elections Office Administration and
        Accessibility.

The Quick Starts and chapters were sent to over 5,000 election officials across the country.

The Program Department’s Language Accessibility Program has worked to meet its strategic
goal of assisting election officials in meeting the needs of language minority voters by translating
glossaries of election terms into four Native American languages and by broadly distributing the
“Voter’s Guide to Federal Elections”. The glossaries and the Voter’s Guide were translated into
Navajo, Cherokee, Dakota, and Yu’Pik. The Office of Citizenship of the U.S. Citizenship and
Immigration Services distributed over 700,000 copies of the Voter’s Guide to new citizens.
Finally, the National Mail Voter Registration Form has been translated into five Asian
languages: Chinese, Japanese, Korean, Tagalog and Vietnamese.

Strategic Plan Goal 4: Build public confidence in elections by testing and certifying
voting systems to improve system security, operation and accessibility.

         Outcome: Voting equipment operates more reliably and securely and is more
         accessible to the disabled. States use the EAC testing and certification program
         to ensure voting systems meet standards.

Goal 4 is administered by the Voting System Testing and Certification (T&C) division.

Goal 4 FY 2010 Accomplishments

In 2009, Congress passed the Military and Overseas Voters Empowerment Act (MOVE)
instructing the Federal Voting Assistance Program (FVAP) to run pilot programs to test the
ability of new or emerging technology to better serve uniformed and overseas citizens. (The
Director of FVAP administers the Uniformed and Overseas Citizens Absentee Voting Act
(UOCAVA) on behalf of the Secretary of Defense.) MOVE goes on to mandate that should
FVAP choose to run a pilot program, EAC and the National Institute of Standards and
Technology (NIST) are to help support FVAP by providing best practices or standards to support
the projects. Further, MOVE reiterated the 2004 mandate from Congress requiring EAC to
create guidelines for FVAP to follow in the development of a remote electronic voting system.
EAC submitted a mandated report to Congress on MOVE Act implementation in April 2010.



                                                 13
                                                                Election Assistance Commission

In addition to participation in implementation of the MOVE Act, EAC is actively involved with
efforts to facilitate military and overseas voting. UOCAVA requires that the States, the District
of Columbia and territories allow U.S. citizens living abroad to register and vote absentee in
elections for Federal office. The EAC led a working group that included representatives of
FVAP, NIST, the EAC advisory board and manufacturers in August 2010 to explore the
technical issues associated with remote electronic absentee voting systems for military and
overseas voters. This group completed a UOCAVA Pilot Program Testable Requirements
document, which was approved by tally vote of the Commissioners in September 2010. Further,
EAC staff developed an EAC Pilot Program Certification Manual which went out for public
comment in April 2010.

Regarding EAC work with the voting system test laboratories, T&C completed an on-site
laboratory assessment of Wyle Labs. In addition to the semi-annual re-accreditation process,
labs undergo a required EAC Policy, Procedures and Practices Review pursuant to the EAC
Laboratory Accreditation Program Manual. The T&C Director approved the ES&S request to
transfer testing of Unity 5.0 from iBeta to Wyle because of capacity issues at iBeta. EAC was
able to close out audit recommendations made in GAO Audit Report 08-770, Voting System Test
Laboratory Accreditation. GAO staff made a “Closed-Implemented” recommendation in August
2010 following the latest round of T&C responses.

In FY 2010, T&C completed internal Standard Operating Procedures for both the Certification
Program and the Laboratory Accreditation Program. The procedures were generated from the
T&C Program Manual. Further, T&C, working with NIST, drafted and updated the current
version of the 2005 Voluntary Voting System Guidelines (VVSG) (now entitled 2005 VVSG
Version 1.1) in 2009. The draft was published for a 120-day public comment period beginning
June 1, 2009 and ending September 28, 2009. Staff reviewed over 300 comments received from
the public. In FY 2010, a revision of the 2005 VVSG addressing comments was completed and
policy decisions were presented to the Commissioners. The Commission discussed the proposed
changes to the 2005 Voluntary Voting System Guidelines at a public meeting on September 21,
2010. The VVSGs are mandated by HAVA. They comprise a set of specifications that voting
systems, voting devices, and software must meet to receive a certification from EAC. EAC-
accredited laboratories test voting systems, voting devices, and software against these guidelines.
Under HAVA, NIST is directed to assist EAC with the certification program through its National
Voluntary Laboratory Accreditation Program (NVLAP), and to provide recommendations to
EAC regarding laboratory accreditation. EAC makes the final decision to accredit laboratories.

Participation by the states for EAC's Voting System Testing and Certification Program is
voluntary. States use varying approaches for both the type of testing required and the language
used to require testing. The following four categories illustrate the diverse approaches taken by
each state (as of April 30, 2009), including the degree states have mandated (though statutes or
administrative regulations) the use of EAC’s Testing and Certification Program. These varying
state requirements, as well as the location of EAC-certified systems, are available via an
interactive map on EAC.gov.
    • Twenty states have no federal requirements: Relevant state statutes and/or regulations
        make no mention of any Federal agency, certification program, laboratory, or standard.
    • Ten states require testing to federal standards: Relevant state statutes and/or rules
        require testing to Federal voting system standards. (States reference standards drafted by


                                                14
                                                                  Election Assistance Commission

       the Federal Election Commission (FEC), National Institute of Standards and Technology,
       or the EAC).
   •   Thirteen states require testing by a federally accredited laboratory: Relevant state
       statutes and/or regulations require testing by a federally or nationally accredited
       laboratory to Federal standards.
   •   Twelve states require federal certification: Relevant state statutes and/or rules require
       that voting systems be certified by a federal agency.

Also in FY 2010, EAC accepted the final work product for the Elections Operations Assessment.
The assessment was conducted to produce a scientifically-founded risk assessment tool that will
facilitate informed decision-making by EAC and its Technical Guidelines Development
Committee (TGDC) when developing voluntary voting system guidelines. The tool will provide
EAC with information needed to conduct a cost-benefit analysis of a comprehensive list of risks
associated with voting systems.

EAC and the TGDC will use the Elections Operations Assessment risk assessment tool to further
improve Federal voluntary voting system guidelines. EAC staff will use the tool to conduct a
scientifically-based cost benefit analysis of voting systems risks and requirements. It will also
help the agency develop voting system requirements that can help mitigate risk. Examples of
risks include software bugs, equipment failures, power failures, natural disasters, terrorist
attacks, or fraudulent acts or errors committed by persons involved in the elections process.

In 2010, T&C continued to make progress in certifying voting systems and working with voting
system manufacturers. Unisyn Open Elect System received Final EAC Certification on January
12, 2010. ES&S Unity 3.2.0.0 received an initial decision on certification. The MicroVote EMS
4.0B Modification was certified on August 23, 2010. EAC staff and technical reviewers
conducted Manufacturer Facility Inspections for Unisyn and ES&S as required by Section 8.5 of
Testing and Certification Program Manual on May 10-13, 2010. EAC published a System
Advisory on the ES&S Unity 3.2.0.0 DS200 freeze/lock-up issue reported by Cuyahoga County,
Ohio. The System Advisories alert jurisdictions across the country about reported voting system
anomalies. EAC works with jurisdictions experiencing problems and with the manufacturers on
resolving the issues.

The following map shows the location of EAC-certified voting systems being used during the
2010 Federal election cycle. The EAC Certified Voting System Map allows users to quickly
access key information about EAC-certified voting systems, including the county in which the
systems are used and test reports issued during the certification process. The interactive map
makes it easy to track advisory alerts that EAC has issued about a system, a critical component
of EAC’s Quality Monitoring Program. As part of the Program, EAC notifies the public about
potential Federally-certified voting systems performance issues, including anomalies.

The map also depicts State requirements for voting system certification. Twelve States require
Federal certification; ten States require testing to Federal standards; and thirteen States require
testing by a Federally-accredited laboratory. Twenty States have no Federal requirement.




                                                 15
                                                             Election Assistance Commission

The Certified Voting Systems Map represents the most recent enhancement to the nation’s
Clearinghouse on election administration information, eac.gov, which features numerous reports,
in-depth research and State-specific data on the election administration process.




Strategic Plan Goal 5 consists of one clear-cut objective: Implement a high performance
organization.

Goal 5 is administered by the Commissioners, the Standards Board, the Board of Advisors, the
Technical Guidelines Development Committee, Executive Director, Chief Operating Officer and
Chief Financial Officer with support from the Offices of the General Counsel and Administration.




                                              16
                                                               Election Assistance Commission


                                 Key Performance Measures
                     o    Implement 90 percent of the OIG audit
                       recommendations within agreed upon timeframes.
                     o    Meet annual performance measures.


The performance measure on implementing 90 percent of OIG audit recommendations with
agreed upon timeframes has been affected by the need for Federal Information Security
Management Act (FISMA) resolution and a small number of remaining policies and procedures
that must be put in place. Now that a Chief Information Officer is on board and with the
assistance of a contractor experienced in FISM compliance, FISMA recommendations were
resolved rapidly, and only two remain open. Further, each month, EAC’s Chair reports to the
Chair and Ranking Member of the House Subcommittee on Elections, Committee on House
Administration on the status of 82 OIG audit recommendations made as of March 2008. To date,
only four of the 82 recommendations remain open. With the exception of a recommendation
related to the National Voter Registration Act rulemaking process, the open recommendations
are expected to be resolved in FY 2011.

On the performance measure regarding meeting annual performance measures, management is
working to foster a culture of accountability among staff. The agency is seeking to improve staff
satisfaction ratings and achieve management excellence through improved internal controls and
human resource initiatives. Agency directors responsible for implementation of the EAC
Strategic Plan goals report on their division metrics in the Agency Financial Report in
November, the Annual Performance Report along with the Congressional Budget Justification in
February, and on planned metrics in the OMB Budget Justification each September. In addition,
in FY 2010 EAC started quarterly strategic planning meetings to discuss implementation of
strategic goals.

EAC plans on independently verifying the reported programmatic (non-financial) metrics data.
To provide further assurance, EAC will implement programmatic internal control procedures as
part of the Agency Financial Report process. This will include sending the program managers
assessable unit risk assessment questionnaires and having the managers provide individual letters
of assurance for signature per EAC Internal Control Procedures. The directors’ letters of
assurance will be rolled into the CFO’s Annual Statement of Assurance.

One of the keys to management excellence is a strong internal control program. EAC staff was
offered internal control training onsite in two sessions during FY 2010. The agency is working
towards an integrated internal control evaluation process to evaluate program performance,
control activities and assessments, and formal monitoring of the effectiveness of programmatic
activities on a periodic basis. EAC will continue to focus on resolution of issues identified in
audits, setting up sound systems and policies and procedures, working with managers on the
relationship between budget and performance, maximizing use of staff and financial resources,
and training EAC staff on financial management processes and their responsibilities.




                                               17
                                                               Election Assistance Commission

Performance Data Collection and Validation

Managing for results and producing an Annual Performance Plan requires valid, reliable and
high-quality performance measures and data. EAC is committed to the continuous improvement
of its performance and financial management data. To this end, EAC is working on
recommendations for a data validation system, mandatory source documentation, and
documentation of calculation methodology for estimates. Performance indicators are supported
by documentation. An independent reviewer evaluated EAC business processes related to
implementation of the four programmatic goals in the Strategic Plan. The reviewer made
recommendations on procedures EAC can implement to provide reasonable assurance that the
reported programmatic performance data is relevant and reliable. EAC plans on having a system
of continuous improvement beginning in FY 2011.

Summary Performance Information

By program, summary performance information for FY 2010 is as follows:

   Communications & Clearinghouse -- launched a new website with powerful search and
   improved navigation tools; posted videos on its website and YouTube on Contingency
   Planning, Polling Place Management, the EAC Voluntary Voting System Testing and
   Certification Program, and Making Polling Places Accessible.

   Grants Management -- awarded 8 Mock Election grants that along with the continuing grants
   will help educate approximately 850,000 students about the electoral process, 15 Help
   America Vote College Program grants to recruit students to serve as poll workers, and a
   $500,000 Military Heroes grant to improve voting accessibility for recently injured military
   personnel; and adopted Maintenance of Effort Policy to facilitate State compliance with the
   maintenance of expenditure requirement in HAVA.

   Research, Policy and Programs -- issued Election Management Guideline chapters and
   Quick Start Guides on Technology in Elections, Elections Office Administration,
   Accessibility, Building Community Partnerships, Canvassing and Certifying an Election,
   Communicating with the Public, Conducting a Recount, and Provisional Ballots; and the
   mandated Free or Reduced Postage for the Return of Voted Absentee Ballots Report.

   Voting Systems Testing and Certification -- certified a fourth voting system, issued a report to
   Congress on our progress in establishing guidelines for remote electronic voting systems for
   absentee voters, jointly with FVAP and NIST completed a UOCAVA Pilot Program Testable
   Requirements document, and reworked for presentation to the Commissioners and discussion
   at a public meeting the 2005 VVSG Version 1.1 following the public comment period.

Program Performance Indicators

The following table presents key EAC FY 2010 program performance data. As much detailed
performance information as possible will be presented, and variances discussed, in the FY 2010
Annual Performance Report due February 15, 2011 along with the FY 2012 Congressional
Justification.


                                               18
                                                              Election Assistance Commission


                             EAC FY 2010 Performance Summary
                                                    Type of
Program               Performance Indicator         Indicator Planned                   Actual
Strategic Goal 1: Communicate
          Issue Clearinghouse policy                Output    Final              In Final Draft
          Issue Policies/Procedures to process requests
          from outside EAC                                  Output   Final       In Final Draft
Strategic Goal 2: Fund and Oversee
                                                                                 100% of
                                                                                 requirements
                                                                                 payments & one
                                                                                 year grants, 33%
                                                                                 of no year
                                                                                 discretionary
           Award grants within established timeframes.      Output   100%        grants
                                                                                 No overdue
                                                                                 management
           Resolve 100 percent of audit findings within                          decisions as of
           established time frames.                         Output   100%        9/30/10
                                                                                 Signed Memo of
                                                                                 Understanding
                                                                                 with HHS July
          Negotiate indirect cost rates within 30 days                           2010 for
          of receipt of acceptable indirect cost                                 negotiation
          proposals.                                        Output   100%        services
Strategic Goal 3: Study, Guide, Assist
          Establish, in Fiscal Year 2010, a baseline for
          measuring stakeholder use of EAC research
          and educational products to improve the
          administration of elections for Federal office.                        Baseline
          In subsequent years, increase the percentage                           established at
          of stakeholder use of EAC research products.      Output   Baseline    50% usage
          Disseminate all completed research project
          reports to stakeholders.                          Output   100%        100%
Strategic Goal 4: Test and Certify
                                                                     Complete    Revised in FY
                                                                     VVSG        2010
           Produce updates to the VVSG in Fiscal Years               update in   Commissioners
           2010 and 2013.                              Output        FY 2010     need to accept.
           Conduct at least one review of a
           manufacturing facility of a registered
           manufacturer at least once every 4 years.        Output   1 review    2 reviews




                                               19
                                                                 Election Assistance Commission

Portfolio Analysis

Since 2004, EAC has received funds in three appropriations: Salaries and Expenses, Election
Reform Programs, and for FY 2008 only, Election Data Collection Grants. The purpose of the
Data Collection grants of $2.0 million each to five States was to measure the costs of improving
the collection of election data at the precinct level during the 2008 Federal election. In FY 2010,
the Salaries and Expenses appropriation of $17,959,000 funded the $3.5 million transfer to
NIST, $750,000 for College Poll Worker recruitment and training grants, $300,000 for Mock
Elections for high school students, salaries, travel, rent and telecommunications, printing,
contracts, supplies and equipment.

I.C. FINANCIAL RESULTS

This analysis is intended to help readers understand EAC’s financial results, position and
condition as portrayed in the financial statements and notes to the statements. It explains
changes in assets, liabilities, costs, revenues, obligations, and outlays; includes comparisons of
FY 2010 to FY 2009; and discusses the relevance of balances and amounts in the financial
statements and notes. The changes are discussed in the context of whether the year’s activities
improved or deteriorated the agency’s financial position. Since EAC depends on Congress for
its funds, future financial position will be dependent on annual appropriations.

Budgetary Resources

Budgetary resources are the amounts available to enter into new obligations and to liquidate
them. The majority of EAC’s available budgetary resources are for Requirements Payments in
the Election Reform Program appropriation. Budgetary resources include new Budget Authority
from appropriations and unobligated balances of Budget Authority provided in previous years in
the no year Election Reform Program account. For FY 2010, the available budgetary resources
were $103.6 million, a drop of 19.7% or $25.4 million from FY 2009. A decrease in
appropriations received in FY 2010 resulted in this change.

Appropriations received for FY 2010 decreased $31.0 million from FY 2009. In FY 2010
EAC’s appropriations totaled $93.0 million as opposed to $124.0 million in FY 2009.
Requirements Payments appropriations were reduced $30.0 million and other grant programs
were reduced $1.0 million.




                                                 20
                                                                Election Assistance Commission


                          Grant  & Requirement Payments Appropriations
                                                                                 Voting Technology 
                                                                                 Improvement Research 
                                                                                 Grants
    $120,000,000 
                                                                                 Pre‐Election Logic & 
                                                                                 Accuracy Testing and 
    $100,000,000 
                                                                                 Post‐Election Verification

     $80,000,000                                                                 College Poll Worker 
                                                                                 Grants
     $60,000,000 
                                                                                 Mock Election Grants
     $40,000,000 

     $20,000,000 
                                                                                 Requirement payments
              $‐
                           FY 2010                   FY 2009


In FY 2008, EAC recorded $50.7 million of unspent HAVA Section 102 payments paid to the
States in FY 2003 and FY 2004. These funds were originally disbursed by the General Services
Administration (GSA) acting as Administrator. Any funds remaining unspent as of November 1,
2011, will return to EAC to be disbursed as HAVA Section 251 payments. Of these amounts,
$1.0 million remain unspent as of September 30, 2010, a decrease of $33.6 million from last
year. The State of New York, the largest holder of unspent HAVA Section 102 funds in the
amount of $33.6 million as of September 30, 2009 expended all of their funds in FY 2010.

The status of available budgetary resources as represented in the 2010 and 2009 Statement of
Budgetary Resources is as follows:

                                                                                          %
       Budgetary Resources                 2010             2009           Difference   Change
Obligations Incurred                   $ 86,303,814     $114,957,639     ($28,653,825) -24.92%
Unobligated Balance – Apportioned        12,046,897        7,452,047        4,594,850   61.66%
Unobligated Balance – Not
Available                                 5,246,828    6,546,853   (1,300,025)              -19.86%
Total Budgetary Resources              $103,597,539 $128,956,539 ($25,359,000)              -18.25%


Obligations Incurred decreased $28.7 million primarily as a result of the disbursement of FYs
2008-2010 Requirements Payments and the reduction in the annual appropriation for
Requirements Payments in FY 2010. Unobligated Balance – Apportioned increased $4.6 million
as appropriations for a $3.0 million grant for disability research and for a $2.0 million grant for
pre-election logic and accuracy testing and post-election verification were not awarded as of
September 30, 2010. EAC awarded in the current year a $500,000 Military Hero’s grant from the
Election Reform Program funds.




                                                21
                                                                  Election Assistance Commission

Financial Position

Assets

EAC had $144.5 million in total assets as of September 30, 2010. This is a decrease of $50.8
million. Fund Balance with Treasury decreased $18.2 million largely as a result of the net
increase from new appropriations offset by disbursements for Requirements Payments from FYs
2008-2010. EAC received $70.0 million in FY 2010 appropriations for Requirements Payments,
of which $29.7 million were disbursed as of September 30, 2010. In addition, $30.4 million in
FY 2009 Requirements Payments and $22.0 million in FY 2008 Requirements Payments were
disbursed in the current year. EAC has $5.0 million in FY 2010 and $5.5 million in FY 2009
grant appropriations that have not yet been disbursed or awarded.

Advances and Prepayments decreased $33.4 million in FY 2010 with a balance of $3.4 million
as of September 30, 2010. In FY 2008, EAC recorded $50.7 million in HAVA Section 102
Advances with the States still unspent as of September 30, 2008, and an unspent balance of
$34.7 million as of September 30, 2009. In FY 2010, the States reported as having spent $33.6
million of the remaining funds. Accordingly, EAC reduced outstanding advances on the Balance
Sheet and recorded $33.6 million in program operating expense on the Statement of Net Costs.
Summary asset data is presented below:

                                         Assets
                                                                                         %
                                  FY 2010           FY 2009         Difference        Change
 Fund Balance with Treasury      $139,699,928     $ 157,884,882   ($18,184,954)       -11.52%
 Advances and Prepayments           3,375,688        36,790,142    (33,414,454)       -90.82%
 Other Assets                       1,401,329           618,266         783,063       126.65%
                                $ 144,476,945   $ 195,293,290     ($50,816,345)       -26.02%

Liabilities

EAC had total liabilities of $1.8 million as of September 30, 2010. This is a $7.1 million
decrease from FY 2009. Accounts Payables decreased $7.2 million in FY 2010. As of
September 30, 2009, EAC had received two completed certifications from the States for
Requirements Payments. These payments had not yet been disbursed as of September 30, 2009
and were therefore accrued. They totaled $6.5 million. All Requirements Payments due as of
September 30, 2010 had been disbursed and no accrual was recorded.


                                         Liabilities
                                                                                          %
                                    FY 2010              FY 2009        Difference      Change
 Accounts Payables                $  1,087,876         $  8,332,010    ($7,244,134)     -86.94%
 Accrued Payroll and Benefits          380,928              290,035          90,893      31.34%
 Unfunded Leave                        327,803              261,880          65,923      25.17%
                                  $   1,796,607        $   8,883,925   $ 7,087,318      -79.78%




                                                  22
                                                                   Election Assistance Commission

Net Position

Net position, which is the sum of Unexpended Appropriations and Cumulative Results of
Operations, decreased in FY 2010 by $43.7 million. Cumulative Results of Operations of
$846,195 as of September 30, 2010 is the accumulated difference between expenditures and
financing sources since the inception of the agency. Unexpended Appropriations decreased
$44.6 million. The appropriations used in FY 2010, including obligated funds from prior years
and the transfer to the National Institute of Standards and Technology of $3.5 million, exceeded
the appropriations received for FY 2010. In addition, EAC expended $82.1 million in
Requirements Payments and $33.6 million in HAVA Section 102 expenditures.

                                          Net Position
                                        FY 2010             FY 2009         Difference      % Change
 Unexpended Appropriations           $ 141,834,143       $ 186,401,600    $(44,567,457)       -23.91%
 Cumulative Results of Operations          846,195               7,765          838,430    10,797.55%
                                     $ 142,680,338       $ 186,409,365    $(43,729,027)       -23.46%



Results of Operations

The EAC, as presented in its Statement of Net Costs, reports its results of operations within four
programs: Communications, Fund and Oversee, Research, Policy and Programs, and Testing and
Certification. Costs specifically identified with each of these programs such as assigned
personnel costs and specific program contract costs are allocated to the program directly. The
Fund and Oversee program reports the expenditures for the Requirements Payments and the
other EAC grants. In years in which EAC receives significant appropriation for these HAVA
funds, this program, Fund and Oversee, typically exceeds the other programs in overall costs.
Other general agency overhead costs such as rent, human resource costs and financial
management costs are allocated on either a per employee basis or a percent of overall costs
method. This methodology is outlined in EAC’s Cost Allocation Model and is reviewed each
year to ensure the accurate allocation of expenses to each program.

Total Net Cost of Operations for the EAC was $131.0 million for Fiscal Year 2010. This was an
overall increase from FY 2009 of $9.4 million. Net Cost of Operations in FY 2010 consists of
general salaries and other expenses totaling $12.8 million and grant and Requirements Payments
of $118.2 million. Net Cost of Operations for FY 2009 consisted of $13.4 million in general
salaries and expenses and $108.2 million in grant and Requirements Payments.


                            Results of Operations by Program
                                                                                                %
                                        FY 2010              FY 2009         Difference       Change
 Communications                     $   1,797,916         $   1,994,125     $ (196,209)        -9.84%
 Fund and Oversee                     122,834,439           113,042,449        9,791,990        8.66%
 Research, Policy and Programs          2,845,652             2,972,123         (126,471)      -4.26%
 Testing and Certification              3,531,576             3,578,173          (46,597)      -1.30%
                                    $ 131,009,583         $ 121,586,870    $   9,422,713        7.75%



                                                    23
                                                                Election Assistance Commission

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the entity in accordance with
Generally Accepted Accounting Principles (GAAP) for Federal entities and the formats
prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports that are used to monitor and control budgetary resources, which are prepared
from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.

I.D. ANALYSIS OF CONTROLS, MANAGEMENT SYSTEMS, AND LEGAL
COMPLIANCE

Internal Control Environment

EAC is subject to numerous legislative and regulatory requirements that promote and support
effective internal controls. EAC believes that maintaining integrity and accountability in its
programs and operations is critical for good government, demonstrates responsible stewardship
over assets and resources, helps ensure high-quality and responsible leadership, allows for
effective delivery of services to customers, and maximizes desired program outcomes.

EAC has developed and implemented management, administrative and financial system controls
that reasonably ensure: 1) programs and operations achieve intended results efficiently and
effectively; 2) resources are used in accordance with the mission of the agency; 3) programs and
resources are protected from waste, fraud and abuse; 4) program and operations activities are in
compliance with laws and regulations; and 5) reliable, complete and timely data are maintained
and used for decision-making.

The agency used controls that ensure that transactions are executed in accordance with budgetary
and financial laws and other requirements, consistent with the purposes authorized, and are
recorded in accordance with Federal accounting standards. EAC ensures that assets are properly
acquired and used, safeguarded to deter theft, accidental loss or unauthorized disposition, and
fraud. The agency still has work to do in collecting programmatic performance data and
ensuring that it is adequately supported. To this end, EAC contracted for and received
recommendations from an independent review of: 1) its strategic plan performance measures and
systems to collect the data and 2) risk levels associated with providing inaccurate information for
internal decision-making. During FY 2011, each manager will be familiar with internal control
requirements and responsibilities and be able to sign statements of assurance that controls are in
place and functioning.

Laws that help EAC improve the management of its financial operations and programs are as
follows:




                                                24
                                                                 Election Assistance Commission

  Federal Manager’s Financial Integrity Act

  The Federal Manager’s Financial Integrity Act (FMFIA) of 1982 requires Executive Branch
  agencies to establish, maintain, and assess internal controls to ensure that agency program and
  financial operations are performed effectively and efficiently. To help ensure that controls have
  been identified and implemented, the heads of agencies must annually evaluate and report on the
  effectiveness of the internal control (FMFIA Section 2) and financial management systems
  (FMFIA Section 4) that protect the integrity of Federal programs.

  During FY 2008, the EAC evaluation was limited to identifying weaknesses disclosed in reports
  issued by the General Accountability Office and by the EAC Office of the Inspector General,
  including the weaknesses identified through the year’s financial statement audit. In FYs 2009
  and 2010, EAC also used the results of self-assessments of financial management internal
  controls.

  A material weakness was identified by management in FYs 2008 and 2009 concerning EAC’s
  lack of effective written policies and procedures in the areas of property, personnel, records
  management, mail management, physical security, travel, information technology, research, and
  communications. Travel, information technology, and research handbooks were finalized in FY
  2010. The remaining handbooks are in draft, some are undergoing legal review and all are
  planned to be finalized in FY 2011. The following chart shows FYs 2009 and 2010 planned
  corrective actions compared to actual completion dates.

                                                                            Target          Actual
                                                                          Completion      Completion
                         Corrective Actions                                  Date            Date
Develop an EAC Manual containing all necessary administrative and          1/31/09         Pending
program procedures.
Implement the applicable requirements of Office of Management and           09/30/09        09/30/09
Budget Circular A-123, Management’s Responsibility for Internal
Controls.

  Table 1 presents the material weaknesses identified by management for FY 2010 as beginning
  balances. Ending balances reflect status after resolution of findings as of September 30, 2010.

  TABLE 1

       EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)

       Statement of Assurance              Unqualified

                                         Beginning                                           Ending
 No.        Material Weaknesses           Balance        New   Resolved    Consolidated      Balance
  1    Lack of Policies & Procedures          1           0        0              0             1

         TOTAL WEAKNESSES                     1           0        0              0             1




                                                  25
                                                                Election Assistance Commission

During FY 2009, EAC began the process of designing, implementing, and assessing internal
controls in full compliance with Office of Management and Budget Circular A-123,
Management’s Responsibility for Internal Control, and FFMIA. A-123 requires the managers of
Federal agencies to take responsibility for assessing internal controls over financial reporting.
EAC contracted for independent review of the key business processes impacting financial
operations and the financial statements, and business processes with no material impact on the
financial statements but which have some potential for risk or exposure for the agency.

In December 2009 and April 2010, EAC conducted agency-wide internal control training,
emphasizing identification of risks to accomplishment of the agency’s mission and program
results. Each director will be responsible for risk assessment for their assessable unit, and for
remediation activities for identified risks, in conjunction with CFO staff. As mentioned earlier,
performance measurement systems were independently assessed. The assessment revealed that
existing performance measures are good indicators as to whether programs and operations
achieve intended results. Recommendations from the assessment, including control activities
needed to achieve program objectives and control activities that will improve accuracy of
performance data, will be implemented in FY 2011 so that EAC’s performance metric reports are
reliable.

The CFO Department was able to provide regular financial reports at the office location level to
fund holders in FY 2010.

Entity-Wide Security Program

EAC recognizes that effective security management is critical to EAC’s mission. The ability to
ensure confidentiality, integrity, and availability of its information assets is essential to
minimizing risks of inadvertent or deliberate misuse, fraud or destruction.

Table 2 identifies the significant deficiencies identified in the FY 2009 audit of the Entity-Wide
Security Program. The ending balances provide status of the deficiencies as of September 30,
2010:




                                                26
                                                              Election Assistance Commission

 TABLE 2

        SIGNIFICANT DEFICIENCIES IN ENTERPRISE-WIDE SECURITY PROGRAM

                                           Beginning                                     Ending
No.        Significant Deficiency           Balance    New   Resolved    Consolidated    Balance
      Lack of an internally developed
1     agency-wide information security
      program.                                1         0       1              0            0
      Lack of an inventory of systems
2
      and applications.                       1         0       1              0            0
      Lack of an adequate security
3
      management structure                    1         0       1              0            0
      Certification and Accreditation
4     of general support systems has
      not been performed.                     1         0       1              0            0
      Third party information security
      examinations and inspections are
5     not monitored for inclusion
      within the service provider’s Plan
      of Actions and Milestones.              1         0       1              0            0

      TOTAL                                   5         0       5              0            0

 During FY 2010, EAC conducted an inventory of information technology systems and
 applications, received Certification and Accreditation of general support systems from the
 General Services Administration, and monitored the EAC website and GSA-provided IT services
 as part of the annual FISMA audit. EAC is committed to establishing and maintaining an
 agency-wide program to provide security for information and information systems that support
 the operations and assets of the agency, including those systems managed by another agency or
 contractor. As part of this effort, EAC hired a Chief Information Officer (CIO) in FY 2010 and
 developed, documented, and implemented its agency-wide Information Security Program. As a
 result, EAC management made significant progress in resolving the FY 2009 Federal
 Information Security Management Act (FISMA) audit findings.

 The FY 2010 FISMA evaluation report found that EAC has taken actions to address the majority
 of the serious problems noted in the FY 2009 FISMA evaluation report. Table 3 below
 summarizes EAC’s level of compliance in each FISMA control area in the FY 2010 FISMA
 evaluation. SC means substantial compliance, PC represents partial compliance, and NSC means
 not in substantial compliance.




                                                  27
                                                                     Election Assistance Commission

       TABLE 3
                       CONTROL REQUIREMENT                       Compliance Determination
                                                                     (SC, PC, NSC)
        Access Control                                                     SC
        Awareness and Training                                             SC
        Audit and Accountability                                           SC
        Certification, Accreditation, and Security Assessments             SC
        Configuration Management                                           SC
        Contingency Planning                                               PC
        Identification and Authentication                                  SC
        Incident Response                                                  SC
        Maintenance                                                        SC
        Media Protection                                                   SC
        Physical and Environmental Protection                              SC
        Planning                                                           SC
        Personnel Security                                                 SC
        Risk Assessment                                                    SC
        System and Services Acquisition                                    SC
        System and Communications Protection                               SC
        System and Information Integrity                                   SC



The FY 2010 report indicates that four areas that had been found in FY 2009 to be in Partial
Compliance are resolved. Compliance in two areas has been partially resolved. The first area
deals with the agency’s contingency planning and testing. The second area involves the agency’s
compliance with Personal Identification Information (PII) and Privacy Act requirements. The
FY 2010 FISMA evaluation report includes specific recommendations for ensuring substantial
compliance in these two control areas. These recommendations and other key information
security tasks are included in EAC’s high-level FY2010 FISMA Plan of Action & Milestones
(POA&M). Once the remaining items in the POA&M are implemented in early FY 2011, EAC
will be substantially compliant in every FISMA control area. Since EAC is in substantial
compliance in every FISMA control area, the FY 2010 financial audit will report EAC’s FISMA
program as being in significant compliance with the requirements of the Act.

EAC has taken action to address the issues identified in FY 2009 with EAC’s agency-wide IT
security program. The review indicated that EAC has corrected most of the significant issues but
needs to implement corrective actions in two major areas.

OMB Circular A-127 Financial Management Systems Requirements:

Table 4 presents the results of management analysis of financial management systems
requirements. The beginning balance reflects the results for FY 2009. The ending balance
reflects the status of the non-conformance as of September 30, 2010.




                                                      28
                                                                Election Assistance Commission

TABLE 4
               CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEMS
                               REQUIREMENTS
                                               (FMFIA § 4)
        Statement of Assurance         Systems do not fully conform to financial management
                                       system requirements
                                       Beginning                                         Ending
  No.   Non-Conformance                 Balance      New     Resolved   Consolidated     Balance
        Integrated Financial
   1
        Management System                  0          0         0            0              0
           TOTAL                           0          0         0            0              0

The Financial Managers Financial Integrity Act (FMFIA) Section 4 on accounting system
requirements is interpreted by OMB Circular A-127 Financial Management Systems. OMB
revised A-127 on January 9, 2009, eliminating the integrated financial management systems sub-
sections. The integration issue was no longer a finding on the audit checklist as of FY 2009.

EAC uses information provided by recipients of HAVA funds on Standard Form (SF) 425
Federal Financial Report and advance accounting methodology. Based on the information
reported on the SF-425, EAC periodically adjusts the advance accounts and records grant
expenditures by submitting adjusting entries to GSA for entry into Pegasys. The result is a
record of actual grant activity and balances at the grantee level and information for periodic
monitoring of grantee financial activity.

Additionally, at the end of FY 2009, GSA made a capital asset module available to client
agencies, which EAC is using.

Audit Follow-Up

EAC’s Office of Inspector General (OIG) conducts audits and reviews of the agency’s
operations. The Office of the Chief Financial Officer (OCFO) works closely with EAC
management and the OIG to complete actions necessary to respond to audit findings. OCFO
tracks the completion of the audit recommendations in a Monthly Audit Recommendation
Tracking Report. The report is carefully reviewed by EAC and is submitted each month to
Congressional Oversight staff. Of the 82 recommendations, as of September 30, 2010, EAC
closed 71, consolidated seven as being repetitive, and has four open findings to resolve. EAC
made improvements in all Agency management challenges. Financial internal control has
substantially improved since FY 2009 through the remediation of audit recommendations made
by the independent auditor in the annual financial statement audit. EAC also considers and
responds to recommendations from audits and reviews conducted by the Government
Accountability Office.




                                                29
                                                              Election Assistance Commission

Federal Financial Management Improvement Act

Per OMB Bulletin No. 07-04 “Audit Requirements for Federal Financial Statements,” EAC as an
Accountability of Tax Dollars Act of 2002-covered agency, is not subject to the requirements of
the Federal Financial Management Improvement Act.

Accountability of Tax Dollars Act of 2002

The Fiscal Year 2010 financial statement audit report identified one area of noncompliance
which was corrected on September 29, 2010.

Federal Information Security Management Act

EAC was in compliance with the Federal Information Security Management Act by the end of
the fiscal year.

Inspector General Act Amendments of 1988

The EAC Office of the IG audits HAVA funds administered by recipients of HAVA grants and
transmits to EAC single audit reports that present findings on HAVA funds. The principal
recipients of HAVA grant funds are State governments. In FY 2010, EAC resolved audit reports
issued by the IG for Illinois, Michigan, New Mexico, North Carolina, Oregon, South Carolina,
Tennessee, and Wyoming. In FY 2010, EAC also resolved Single Audit Act findings for the
States of California, Illinois, Iowa, and Nebraska.




                                              30
                                                                Election Assistance Commission




                        U.S. ELECTION ASSISTANCE COMMISSION
                        1201 New York Ave. NW – Suite 300
                        Washington, DC 20005


Annual Assurance Statement on Internal Control

The management of the Election Assistance Commission (EAC) is responsible for establishing
and maintaining effective internal control and financial management systems that meet the
objectives of the Federal Managers’ Financial Integrity Act (FMFIA) and Office of Management
and Budget (OMB) Circular A-123 Management’s Responsibility for Internal Control. Internal
control is an integral component of EAC’s management that provides reasonable assurance the
following objectives are being achieved: effectiveness and efficiency of operations, reliability of
financial reporting, and compliance with applicable laws and regulations.

EAC’s assessment of internal controls for ensuring the effectiveness and efficiency of operations
focused on assessing controls for ensuring the reliability of information associated with the
performance measures presented in its strategic plan, and on self-assessments in the Office of the
Chief Financial Officer (OCFO). With respect to assessing internal control designed to ensure
the reliability of financial reporting, EAC is not required by OMB Circular A-123 to perform a
separate assessment. EAC relied upon the evaluation of internal controls over financial reporting
conducted by its independent auditors, on reports issued by the Inspector General, and on OCFO
departmental risk assessments and letters of assurance over the accounting, budget, grants,
procurement and overall OCFO functions. With respect to internal controls to ensure
compliance with laws and regulations, the EAC relied upon the evaluation conducted by its
independent auditors and the Inspector General.

In FY 2010, EAC worked to resolve one material weakness in the effectiveness of its internal
control over operations: lack of effective written policies and procedures. EAC will work in FY
2011 to finalize the effective policies and procedures listed above. On October 13, 2009, the
Inspector General submitted to the GAO for review a potential anti-deficiency violation. In its
report, the GAO found that EAC had violated the purpose statute for fiscal year 2004. As a
result, the auditors in the FY 2010 audit identified one instance of material non-compliance with
the Anti-Deficiency Act. The agency reported the violation to the President, Congress, and
Comptroller General in letters dated September 29, 2010, closing the finding.

Except for the material weakness described above, the Commission provides a qualified
statement of assurance that the internal control and financial management systems meet the
objectives of the Federal Managers’ Financial Integrity Act.



Donetta Davidson
Chair
November 15, 2010


                                                31
                                                              Election Assistance Commission




SECTION II
Financial Section
II.A. MESSAGE FROM THE CHIEF FINANCIAL OFFICER

I am pleased to present EAC’s financial statements for FY 2010. Our financial statements are an
integral component of the Agency Financial Report (AFR). This is the third year in its seven
year operational existence that EAC has prepared financial statements and submitted them for
audit. EAC has worked diligently toward unqualified opinions on the last two financial
statements.

This is the second year EAC is participating in the pilot performance reporting project as
described in OMB Circular A-136 Financial Reporting Requirements, presenting an Agency
Financial Report in place of the Performance and Accountability Report. EAC presents
summarized performance data in this report, and will provide detailed data in February 2011 in
conjunction with the Fiscal Year (FY) 2012 Congressional Justification.

During FY 2010, to address issues in the FY’s 2009 financial statement audit, EAC worked on
written policies and procedures, addressed a report from GAO on an area of noncompliance with
laws and regulations, and resolved the majority of Federal Information Security Management
Act findings by the end of the fiscal year.




Annette Lafferty
Chief Financial Officer
November 15, 2010




                                              32
                                       Election Assistance Commission

II.B. INSPECTOR GENERAL’S ASSESSMENT




                                33
     Election Assistance Commission




34
                                     Election Assistance Commission

II.C. INDEPENDENT AUDITORS’ REPORT




                                35
     Election Assistance Commission




36
     Election Assistance Commission




37
     Election Assistance Commission




38
     Election Assistance Commission




39
     Election Assistance Commission




40
     Election Assistance Commission




41
     Election Assistance Commission




42
     Election Assistance Commission




43
     Election Assistance Commission




44
     Election Assistance Commission




45
                                                               Election Assistance Commission

II.D. FINANCIAL STATEMENTS

The Balance Sheet presents information as of September 30, 2010, amounts of future economic
benefits owned or managed by EAC (i.e., assets), amounts owed by EAC (i.e., liabilities), and
amounts that comprise the difference (i.e., net position).

                         ELECTION ASSISTANCE COMMISSION
                                      BALANCE SHEET
                       As of September 30, 2010 and 2009 (In Dollars)
Assets                                                     2010                    2009
       Intragovernmental:
               Fund balance with Treasury (Note 2)   $    139,699,928        $    157,884,882
               Advances and Prepayments (Note 4)             2,263,002              2,097,844
       Total intragovernmental assets                     141,962,930             159,982,726
       With public:
               Accounts receivable, net (Note 3)               228,374                349,146
               Advances and prepayments (Note 4)             1,112,686             34,692,298
       Total assets with public                              1,341,060             35,041,444
       General property and equipment, net (Note 5)          1,172,955                269,120
       Total assets                                  $    144,476,945        $    195,293,290


Liabilities
       Intragovernmental:
                Accounts payable (Note 6)                $        306,504    $        348,958
                Employer contribution and payroll
                taxes payable (Note 6)                             73,289              48,157
       Total intragovernmental                                    379,793             397,115
       With the public:
                Accounts payable (Note 6)                         781,372           7,983,052
                Accrued payroll and benefits (Note 6)             307,639             241,878
                Unfunded leave (Note 6)                           327,803             261,880
       Total liabilities                                        1,796,607           8,883,925

Net position
               Unexpended appropriations                      141,834,143         186,401,600
               Cumulative results of operations                   846,195               7,765
       Total net position                                     142,680,338         186,409,365

       Total liabilities and net position                    $ 144,476,945       $195,293,290

The accompanying notes are an integral part of these financial statements.




                                               46
                                                                Election Assistance Commission


                        ELECTION ASSISTANCE COMMISSION

                               STATEMENT OF NET COST

              For The Years Ended September 30, 2010 and 2009 (In Dollars)




                                                             2010                 2009

 Program Costs:

       Communications                                    $     1,797,916        $ 1,994,125

       Fund and Oversee                                      122,834,439         113,042,449

       Research, Policy and Programs                           2,845,652           2,972,123

       Testing and Certification                               3,531,576           3,578,173

           Net cost of operations (Note 8)               $ 131,009,583          $121,586,870




The accompanying notes are an integral part of these financial statements.


                                               47
                                                                   Election Assistance Commission

                          ELECTION ASSISTANCE COMMISSION
                      STATEMENT OF CHANGES IN NET POSITION
                 For The Years Ended September 30, 2010 and 2009 (In Dollars)

                                                                     2010                    2009

  Cumulative results of operations:
   Beginning balance                                           $            7,765        $      292,760
   Beginning balance, as adjusted                                           7,765               292,760

  Budgetary financing sources:
    Appropriations used                                               131,610,830            121,087,642

  Other financing sources (non-exchange):
    Imputed financing from costs absorbed from others                    237,183                214,233

  Total financing sources:                                            131,848,013            121,301,875

    Net cost of operations                                          (131,009,583)        (121,586,870)
    Net change                                                            838,430            (284,995)

  Cumulative results of operations:                                      846,195                    7,765

  Unexpended appropriations:
   Beginning balance                                                  186,401,600            187,595,489
   Beginning balance, as adjusted                                     186,401,600            187,595,489

  Budgetary financing sources:
    Appropriations received                                            92,959.000            123,959,000

    Appropriations transferred in/out (+/-)                           (3,500,000)            (4,000,000)

    Other adjustments                                                 (2,415,627)               (65,247)

    Appropriations used                                             (131,610,830)        (121,087,642)

  Total budgetary financing sources                                  (44,567,457)            (1,193,889)

  Total unexpended appropriations                                     141,834,143            186,401,600

  Net position                                             $          142,680,338    $       186,409,365


The accompanying notes are an integral part of these financial statements.




                                               48
                                                                 Election Assistance Commission

                           ELECTION ASSISTANCE COMMISSION
                         STATEMENT OF BUDGETARY RESOURCES
                For The Years Ended September 30, 2010 and 2009 (In Dollars)
                                                              2010                       2009
Budgetary resources:
    Unobligated balance, brought forward (Note 11)         $   13,998,900    $             7,561,952
    Recoveries of prior year obligations (Note 11)              1,181,062                    662,985
    Budget authority:
            Appropriations received                            92,959,000                123,959,000
            Spending authority from offsetting
            collections:
                     Collected (Note 11)                        1,374,204                     837,849
    Nonexpenditure transfers, net, anticipated and actual     (3,500,000)                 (4,000,000)
    Permanently not available                                 (2,415,627)                    (65,247)
Total budgetary resources (Note 9)                        $  103,597,539   $             128,956,539

Status of budgetary resources:
     Obligations incurred: (Note 9 & Note 11)                    $     86,303,814    $   114,957,639


     Unobligated balance - apportioned                                 12,046,897          7,452,047

    Unobligated balance not available (Note 11)                         5,246,828          6,546,853
Total status of budgetary resources (Note 9)                 $        103,597,539    $   128,956,539

Change in obligated balance:
    Obligated balance, net
    Unpaid obligations, brought forward (Note 11)            $         143,885,983   $    125,904,580
    Obligations incurred, net                                           86,303,814        114,957,639
    Less: gross outlays (Note 11)                                    (106,602,531)       (96,313,253)
    Less: recoveries of prior year unpaid obligations,
    actual                                                             (1,181,062)         (662,985)
Total, unpaid obligated balance, end of period forward
(Note 12)                                                    $        122,406,204    $   143,885,981

Net outlays:
     Gross outlays                                           $        106,602,531    $    96,313,253
     Less: offsetting collections                                      (1,374,204)         (837,849)
Net outlays (Note 9)                                         $        105,228,327    $    95,475,404

The accompanying notes are an integral part of these financial statements.



                                                49
                                                            Election Assistance Commission

II.E NOTES TO FINANCIAL STATEMENTS
Note 1 – Summary of Significant Accounting Policies

Reporting Entity

The U.S. Election Assistance Commission (EAC) is an independent, bipartisan commission
charged with developing guidance to meet the Help America Vote Act (HAVA) requirements,
adopting voluntary voting system guidelines, and serving as a national clearinghouse of
information about election administration. EAC also accredits voting system testing
laboratories and certifies voting systems, as well as audits the use of HAVA funds. Other
responsibilities include distributing and monitoring HAVA funds provided to States and other
grantees, and maintaining the national mail voter registration form developed in accordance
with the National Voter Registration Act of 1993.

HAVA established the Standards Board and the Board of Advisors to advise EAC. The law
also established the Technical Guidelines Development Committee to assist EAC in the
development of voluntary voting system guidelines.

Four EAC Commissioners are appointed by the President and confirmed by the United States
Senate. EAC is required to submit an annual report to Congress as well as testify
periodically about HAVA progress and related issues. The Commission also holds public
meetings and hearings to inform the public about its progress and activities.

Basis of Accounting and Presentation

As required by the Accountability of Tax Dollars Act of 2002 (ATDA), the accompanying
financial statements present the financial position, net cost of operations, changes in net
position, and budgetary resources of the EAC. While these financial statements have been
prepared from the books and records of the EAC in accordance with United States generally
accepted accounting principles (GAAP) and in accordance with the form and content for
entity financial statements specified by the Office of Management and Budget (OMB) in
Circular A-136, as revised, Financial Reporting Requirements, as well as the accounting
policies of EAC, the statements may differ from other financial reports submitted pursuant to
OMB directives for the purpose of monitoring and controlling the use of EAC’s budgetary
resources. GAAP for Federal entities are the standards prescribed by the Federal Accounting
Standards Advisory Board (FASAB), which is the official body for setting the accounting
standards of the Federal government.

These financial statements reflect both accrual and budgetary accounting transactions.
Under the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when a liability is incurred, without regard to receipt or payment of
cash. Budgetary accounting is designed to recognize the obligation of funds according to
legal requirements. Budgetary accounting is essential for compliance with legal constraints
and controls over the use of Federal funds.




                                             50
                                                             Election Assistance Commission

Throughout these financial statements, assets, liabilities, revenues, and costs have been
classified according to the type of entity with which the transactions are associated.
Intragovernmental assets and liabilities are those from or to other Federal entities.
Intragovernmental earned revenues are collections or accruals of revenue from other
Federal entities, and intragovernmental costs are payments or accruals to other Federal
entities. These statements should be read with the understanding that they are for a
component of the U.S. Government, a sovereign entity.

Assets

Assets that an entity is authorized to use in its operations are termed entity assets, while
assets that are held by an entity and are not available for the entity’s use are termed non-
entity assets. All of the EAC’s assets are entity assets and are available to carry out the
mission of EAC, as appropriated by Congress.

Fund Balance with Treasury

EAC does not maintain cash in commercial bank accounts. The U.S. Treasury processes
cash receipts and disbursements. Funds with the U.S. Treasury consist of appropriated
funds. These funds are available to pay current liabilities and finance authorized purchase
commitments.

Accounts Receivable

EAC’s accounts receivable represents claims from associates and amounts due from the
States and grant recipients. The amounts due from current and separated employees result
from payroll adjustments and/or court-ordered actions. The amounts from the States and
grant recipients result from audits and examinations performed by EAC on the proper use of
funds under the Help America Vote Act of 2002, Sections 101, 102 and 251 payments, and
Section 102 funds unspent by the States that did not file the extension waiver.

Advances and Prepayments

On occasion, EAC prepays amounts in anticipation of receiving future benefits. Although a
payment has been made, an expense is not recorded until goods have been received or
services have been performed. EAC has prepayments and advances with non-
governmental, as well as governmental vendors.

Total prepayments and advances to non-governmental entities as of September 30, 2010
and 2009 were $1,112,686 and $34,692,298, respectively. These include primarily HAVA
Section 102 disbursements unspent by the States as of September 30, 2010 and 2009.
The prepayments and advances to governmental entities were $2,263,002 and $2,097,844
as of September 30, 2010 and 2009. These included deposit accounts with the U.S.
Department of Interior Acquisition Services Directorate to provide acquisition support
services to EAC.




                                              51
                                                               Election Assistance Commission

General Property and Equipment

General property and equipment (PP&E) is reported at acquisition cost.

The capitalization threshold is established at $10,000 for assets with a useful life of two or
more years. The bulk purchase policy requires that all items will be capitalized when the
individual useful lives are at least two years and have an aggregate value of $100,000 or
more.

Acquisitions of PP&E that do not meet the capitalization criteria are recorded as operating
expenses. General PP&E consists of items that are used by EAC to support its mission.

Maintenance, repairs and minor renovations are expensed as incurred. Expenditures that
materially increase values, change capacities or extend useful lives are capitalized.

The headquarters building in which EAC operates is leased through the General Services
Administration (GSA) under an occupancy agreement, which manages the lease agreement
between the Federal government and the commercial entity. EAC is billed on a monthly basis
by GSA for the leased premises. The cost of the leasehold improvements to the
headquarters building has been capitalized. Any costs of leasehold improvements financed
with funds appropriated to EAC are capitalized if the total cost exceeds $25,000. Any
construction costs are accumulated as “construction in-progress” until completion and then
transferred and capitalized as “leasehold improvements” over seven years or the remainder
of the lease, whichever is less.

Currently, EAC has no internal use software. In future years, any internal use software
development and acquisition costs of $25,000 will be capitalized as software development
in progress until the development stage is completed and the software is successfully
tested. At acceptance, software development-in-progress costs will be reclassified as
internal use software costs and amortized using the straight-line method over an estimated
useful life of five years. Purchased commercial software that does not meet the
capitalization criteria will be expensed. Enhancements which do not add significant new
capability or functionality will be expensed.

Liabilities

Liabilities represent amounts that are likely to be paid by the EAC as the result of
transactions or events that have already occurred; no liabilities are paid by EAC without an
appropriation. Intragovernmental liabilities arise from transactions with other Federal
entities. Liabilities classified as not covered by budgetary resources are liabilities for which
appropriations have not been enacted (e.g., annual leave benefits and actuarial liability
under the Federal Employees Compensation Act).

Accounts Payable

Accounts payable consists of liabilities to commercial vendors and contractors and other
Federal agencies for amounts owed for goods, services, and other expenses received but



                                               52
                                                               Election Assistance Commission

not yet paid at the end of the fiscal year. Accounts payable also consists of disbursements
in transit recorded by EAC but not paid by the U.S. Treasury.

Accrued Payroll and Benefits

Accrued payroll and benefits represent salaries, wages and benefits earned by employees,
but not disbursed as of September 30, 2010 and 2009. Accrued payroll and benefits are
payable to employees and are therefore not classified as intragovernmental.

Annual, Sick and Other Leave

Annual leave is recorded as a liability when it is earned; the liability is reduced as leave is
taken. Each pay period, the balance in the accrued leave account is adjusted to reflect the
current leave balances and pay rates. Accrued annual leave is paid from future funding
sources and accordingly is reflected as a liability not covered by budgetary resources. Sick
leave and other types of non-vested leave are expensed as taken.

Federal Employee Benefits

A liability is recorded for estimated and actual future payments to be made for worker’s
compensation pursuant to the Federal Employees Compensation Act (FECA).
EAC had a FECA liability at the end of the reporting period for claims filed for the period July
1, 2009 through June 30, 2010. Accordingly, EAC recorded a liability for estimated
payments to be made for workers’ compensation pursuant to the Act.

Employee Retirement Plans

EAC employees participate in either the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS), which became effective on January 1, 1987.
Most EAC employees are covered by FERS and Social Security.

For employees covered by CSRS, EAC withheld 7.0 percent of base pay earnings. EAC
matches this withholding, and the sum of the withholding and the matching funds is
transferred to the Civil Service Retirement System.

For FERS covered employees, EAC made contributions of 12.3 percent of base pay.
Employees participating in FERS are covered under the Federal Insurance Contribution Act
(FICA) for which EAC contributes a matching amount to the Social Security Administration.
FERS contributions made by employer agencies and covered employees are comparable to
the U.S. Government’s estimated service costs.

Thrift Savings Plan (TSP)

The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees
covered by either CSRS or FERS. TSP is administered by the Federal Retirement Thrift
Investment Board on behalf of Federal agencies. For employees belonging to FERS, EAC
automatically contributes one percent of base pay to their account and matches contributions



                                               53
                                                               Election Assistance Commission

up to an additional four percent. For employees belonging to CSRS, there is no governmental
matching contribution.

EAC does not report on its financial statements CSRS and FERS assets, accumulated plan
benefits, or unfunded liabilities, if any, which may be applicable to EAC employees. Reporting
such amounts is the responsibility of the Office of Personnel Management. The portion of the
current and estimated future outlays for CSRS not paid by EAC is, in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities
of the Federal Government, included in EAC's financial statements as an imputed financing
source.

Commitments and Contingencies

Commitments are contractual agreements involving financial obligations. EAC is committed for
goods and services that have been ordered, but have not yet been received.

A contingency is an existing condition, situation, or set of circumstances involving uncertainty
as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future
events occur or fail to occur. A contingency liability is recognized when a past event or
exchange transaction has occurred, and future outflow or other sacrifice of resources is
measurable and probable. A contingency is not disclosed when any of the conditions for liability
recognition are met but the chance of the future event or events occurring is remote. A
contingency is disclosed when any of the conditions for liability recognition are not met and the
chance of the future confirming event or events occurring is more than remote but less than
probable.

Revenues and Other Financing Sources

Annual Appropriation

EAC receives its funding through an annual appropriation as provided by Congress.

Imputed Financing Sources

In accordance with OMB Circular A-136, all expenses should be reported by agencies whether
or not these expenses would be paid by the agency that incurs the expense. The amounts for
certain expenses of EAC, which will be paid by other Federal agencies, are recorded in the
Statement of Net Cost. A corresponding amount is recognized in the “Statement of Changes in
Net Position” as an “Imputed Financing Source.” These imputed financing sources primarily
represent unfunded pension costs of EAC employees, as described above.

Statement of Net Cost

Net cost of operations is the difference between EAC’s expenses and its earned revenue.
For Fiscal Years 2009 and 2010, EAC has four programs: Communications, Fund and
Oversee, Research, Policy and Programs, and Testing & Certification. The cost for each
program is the sum of the direct costs of the program and an allocation of the agency’s
other overhead costs such as rent, telecommunications, and administrative and financial


                                               54
                                                             Election Assistance Commission

support staff. All grants and requirements payments are included in the Fund and Oversee
program.

Grants

EAC administers and oversees the grant-making process in connection with Federal
Requirements Payments and grants made to recipient organizations under HAVA. As
Requirements Payments and grants are awarded, they are recorded as obligations and
represent uses of budgetary resources. Payments made under the grant awards for
expenditures already incurred by the recipients are fully expended and are included in the
Statement of Net Cost. Grant awards made to grantees in advance of expenditures are
recorded as advances and are included in the balance sheet.

Net Position

Net position is the residual difference between assets and liabilities, and is comprised of
unexpended appropriations and the cumulative results of operations. Unexpended
appropriations represent appropriated spending authority that is unobligated and has not
been withdrawn by the U.S. Treasury along with obligations that have not been paid.
Unobligated balances associated with appropriations that expire at the end of the fiscal year
remain available for obligation adjustments, but not for new obligations, until that account is
closed, five years after the appropriations expire. Cumulative results of operations
represent the excess of financing sources over expenses since inception.

Use of Estimates

The preparation of the accompanying financial statements in accordance with accounting
principles generally accepted in the United States requires management where necessary,
to make certain estimates and assumptions that directly affect the reported amounts of
assets, liabilities, revenues, and expenses. Actual results could differ from these estimates.

Note 2 – Fund Balance with Treasury
Fund balances with Treasury are contained within six annual funds (FY2005 through
FY2010) and two no-year funds. The total of fund balances with Treasury consisted of the
following at September 30, 2010 and September 30, 2009:




                                              55
                                                             Election Assistance Commission

                                                   FY 2010               FY 2009
 Fund Balance with Treasury
      Appropriated Funds                       $   139,699,928          $157,884,882

 Status of Fund Balance with Treasury:
      Unobligated Balance
              Available                              12,046,895               7,452,047
              Unavailable                             5,246,828             6,546,853
       Obligated Balance not yet Disbursed         122,406,205           143,885,982
       Total                                   $   139,699,928         $ 157,884,882

Available unobligated balances represent amounts that are apportioned for obligation in the
current fiscal year. Unavailable unobligated balances represent amounts that are not
apportioned for obligation during the current fiscal year, along with expired appropriations
that are no longer available to incur new obligations. Obligated balances not yet disbursed
include undelivered orders unpaid and expended authority-unpaid.

Note 3 – Accounts Receivable, Net

Accounts Receivable, Net is comprised of claims from associates and consists of the
following as of September 30, 2010 and September 30, 2009:

                                              FY 2010               FY 2009

       Accounts Receivable, Net
            Claims from Associates        $          2,067      $     18,449
            Due from States                        226,307           330,697
                                          $        228,374      $    349,146

EAC establishes an allowance for the loss on accounts receivable that are deemed
uncollectible accounts, which is included in Accounts Receivable, Net on the balance sheet.
After an account or portion thereof is deemed delinquent, an accounts receivable allowance
is established in the financial records. The allowance is based on known historical collection
rates and a review of circumstances particular to the debtor.

Note 4 – Advances and Prepayments

Advances and prepayments with non-governmental and governmental entities consist of the
following as of September 30, 2010 and September 30, 2009:

Advances and Prepayments                        FY 2010                 FY 2009
       With Governmental Entities             $    2,263,002          $ 2,097,844
       With Non-governmental Entities              1,112,686            34,692,298
Total                                         $    3,375,688          $ 36,790,142




                                              56
                                                               Election Assistance Commission

Note 5 – General Property and Equipment, Net

The general components of capitalized property and equipment, net of accumulated
depreciation, consist of the following as of September 30, 2010 and September 30, 2009:

                                           2010
                      Service Life      Acquisition        Accumulated           Net Book
Asset Class             (years)            Value           Depreciation           Value
Office Equipment           5            $ 128,264          $     61,208         $ 67,056
Furniture                  5              726,933               211,411           515,522
Leasehold
Improvements                4             681,915                  91,538         590,377

Total                                   $1,537,112         $      364,157      $1,172,955


                                           2009
                      Service Life      Acquisition        Accumulated           Net Book
Asset Class             (years)            Value           Depreciation           value
Office Equipment           5            $ 113,943          $     61,256         $ 52,687
Furniture                  5              303,613               125,851          177,762
Leasehold
Improvements                7             551,387                 512,716         38,671
Total                                   $ 968,943          $      699,823       $ 269,120

Depreciation expense was $262,236 for the period ending September 30, 2010 and
$237,912 for the period ending September 30, 2009.

Depreciation on these assets is calculated using the straight-line method with no salvage
value. Depreciation begins the month after the asset is placed in service. Useful lives are
five years for equipment and five years for furniture.

The estimated useful lives and corresponding capitalization thresholds are as follows:

                     Type                     Lives             Threshold
         Equipment                           5 years              $ 10,000
         Furniture                           5 years                10,000
         Vehicles                            5 years                10,000
         Leasehold Improvements              7 years                25,000
         Software                            5 years                25,000




                                             57
                                                               Election Assistance Commission

Note 6 – Liabilities

Liabilities Not Covered by Budgetary Resources

Liabilities Not Covered by Budgetary Resources result from the receipt of goods and
services, or the occurrence of events, for which appropriations, revenues, or other financing
sources necessary to pay the liabilities have not yet been made available through
Congressional appropriation.

Liabilities Not Covered by Budgetary Resources consisted of the following as of September
30, 2010 and September 30, 2009:

                                                          FY 2010           FY 2009

       With the Public
                           Unfunded Annual Leave      $       327,803      $ 261,880
       Intragovernmental
                           FECA Liability                       1,023            441
                                                      $       328,826      $ 262,321


Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources consist of the following as of September 30,
2010 and September 30, 2009:


                                                               FY 2010             FY 2009
Intragovernmental
    Accounts payable                                      $     306,504        $    348,958
    Employer contributions and payroll taxes payable             72,266              47,716
Total intragovernmental                                         378,770             396,674

With the public
   Accounts payable                                              781,372           7,983,052
   Accrued payroll and benefits                                  307,639             241,878
Total with the public                                          1,089,011           8,224,930

Total liabilities covered by budgetary resources          $ 1,467,781          $ 8,621,604




                                             58
                                                            Election Assistance Commission

Note 7 – Leases

EAC has no capital leases. EAC has a current operating lease for the headquarters office
space located at 1201 New York Avenue, NW, Suite 300 Washington DC which runs through
March 31, 2014. EAC took occupancy of this space on March 19, 2010.

EAC also has an operating lease for additional space located at 1440 New York Avenue, NW,
Washington, DC, which commenced August 5, 2008 with an original completion date of
December 5, 2008. This lease has been extended through March 17, 2010 to coincide with
the occupation of the new space at 1201 New York Avenue, N.W. Washington, DC. EAC
continues to occupy past March 17, 2010 a portion of the previous space at 1440 New York
Avenue. GSA is currently working on either negotiating for the continued use of this space or
for space at a different location.

Future lease payments due under these leases through March 31, 2014 are:

        Future Operating Lease Payments          FY 2010
        Fiscal Year                           Lease Payment
        2011                                   $    921,702
        2012                                        929,627
        2013                                        937,790
        2014                                        477,588
        2015                                              0
        2016 and thereafter                               0
        Total future lease payments            $ 3,266,707

        Future Operating Lease Payments          FY 2009
        Fiscal Year                           Lease Payment
        2010                                   $    833,676
        2011                                        921,702
        2012                                        929,627
        2013                                        937,790
        2014                                        477,588
        2015 and thereafter                               0
        Total future lease payments            $ 4,100,383


Note 8 – Statement of Net Cost

For Fiscal Years 2009 and 2010, EAC has four programs: Communications, Fund and
Oversee, Research, Policy and Programs, and Testing and Certification. The cost for each
program is a sum of the direct costs of the program and an allocation of the agency’s other
overhead costs such as rent, telecommunications, and administrative and financial support
staff. All grants and Requirement Payments are included in the Fund and Oversee program.
The total cost of operations for the periods ended September 30, 2010 and September 30,
2009 is as follows:



                                             59
                                                            Election Assistance Commission


                                    Fiscal Year 2010
Programs                         Intragovernmental With the Public           Total
  Communications                     $      521,265 $ 1,276,651          $   1,797,916
  Fund & Oversee                         1,329,791   121,504,648           122,834,439
  Research, Policy & Program                825,032    2,020,620             2,845,652
  Testing and Certification              1,023,899     2,507,677             3,531,576
Total                                $ 3,699,987 $127,309,596            $ 131,009,583

                                    Fiscal Year 2009
Programs                         Intragovernmental With the Public           Total
  Communications                   $        268,849 $ 1,725,276          $ 1,994,125
  Fund & Oversee                            658,522  112,383,927           113,042,449
  Research, Policy & Program                400,703    2,571,420             2,972,123
  Testing and Certification                 482,411    3,095,762             3,578,173
Total                                $ 1,810,485 $119,776,385            $ 121,685,870

In accordance with OMB Circular A-136, costs incurred for goods and services provided by
other Federal entities are reported in the full costs of EAC’s programs and for Fiscal year
2010 employer benefits for payroll, excluding TSP were included. They are identified as
“intragovernmental.” All other costs are identified as “with the public.”

Note 9 – Statement of Budgetary Resources
The Statement of Budgetary Resources (SBR) compares budgetary resources with the status
of those resources. As of September 30, 2010, budgetary resources were $103,597,539
and net outlays were $105,228,327. As of September 30, 2009, budgetary resources were
$128,956,539 and net outlays were $95,475,404.

Apportionment Categories of Obligations Received

EAC receives apportionments of its resources from OMB. These are “Category B”
apportionments which are for resources that can be obligated in compliance with legislation
underlying programs for which the resources were made available.

For the periods ended September 30, 2010 and September 30, 2009, direct obligations
incurred amounted to $86,303,814 and $114,957,639.

Note 10 - Comparison to the Budget of the United States Government
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting, requires an explanation of material
differences between budgetary resources available, the status of those resources and
outlays as presented in the Statement of Budgetary Resources to the related actual
balances published in the Budget of the United States Government (Budget). The Budget
that will include FY 2010 actual budgetary execution information is scheduled for
publication in February 2011, which will be available through OMB’s website at



                                             60
                                                          Election Assistance Commission

http://www.whitehouse.gov/omb. Accordingly, information required for such disclosure for
FY 2010 is not available at the time of publication of these financial statements.

The Budget that includes the FY 2009 actual budgetary execution information was
published February 1, 2010.

                                      Budgetary        Obligations
             FY 2009                  Resources         Incurred          Net Outlays
Statement of Budgetary
Resources                           $128,956,539      $114,957,639     $ 96,313,253
Section 102 Advances                  50,723,357        50,723,357       50,723,357
Unobligated Balances Not
Available                             (6,546,853)                0                0
Non-Expenditure Transfer                        0                0        4,000,000
           Total Adjusted Balance   $173,133,043      $165,680,996     $151,036,610
Budget of the U.S. Government        172,000,000       164,000,000      150,000,000
Difference                          $ 1,133,043       $ 1,680,996      $ 1,036,610

The difference between the Statement of Budgetary Resources and the Budget of the U.S.
Government is largely related to timing differences for the HAVA Section 102 Advances given
to States that have not yet been spent by the States. These advances were recorded in
Fiscal Year 2009 for the President’s Budget and the SF-133 forms. However, for financial
statement reporting purposes these transactions were recorded in the fiscal year ended
September 30, 2008. Other minor differences include expired unobligated balances
included on the Statement of Budgetary Resources but not available for the President’s
Budget, and a Non-expenditure transfer to the National Institute of Standards and
Technology (NIST). Remaining differences are due to rounding.

Note 11 - Unpaid Obligated Balance, Net

Unpaid obligated balance, net consists of undelivered orders and accounts payable.
Undelivered orders represent obligations for which goods and services have not yet been
received. Accounts payable includes goods and services which have been received but not
yet paid for. The total unpaid obligated balance, net as of September 30, 2010 and
September 30, 2009 was as follows:

                                            FY 2010             FY 2009

         Undelivered Orders              $120,938,416        $135,264,377

         Accounts Payable                    1,467,788           8,621,604

         Unpaid obligated balance, net   $122,406,204        $143,885,981




                                            61
                                                                     Election Assistance Commission

Note 12: Reconciliation of Net Cost of Operations to Budget
The purpose of this note is to detail the differences between budgetary and financial
(proprietary) accounting. This is accomplished by means of a reconciliation of budgetary
obligations and non-budgetary resources available to the reporting entity with its net cost of
operations.


Resources Used to Finance Activities                                       FY 2010         FY 2009
  Budgetary Resources Obligated
    Obligations Incurred                                                  $86,303,814    $114,957,639
    Less: Spending authority from offsetting collections and
    recoveries                                                             (2,555,266)     (1,500,835)
    Net Obligations                                                        83,748,548     113,456,804

  Other Resources
     Imputed financing from costs absorbed by others                          237,183         214,233
     Net other resources used to finance activities                           237,183         214,233
  Total Resources Used to Finance Activities                               83,985,731     113,671,037

Resources Used to Finance Items Not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods, services
  and benefits ordered but not yet provided                                47,740,411       7,633,082

   Resources that finance the acquisition of assets                        (1,174,413)        (29,397)
   Total Resources Used to Finance Items Not Part of
   the Net Cost of Operations                                              46,565,998       7,603,685
Total Resources Used to Finance the Net Cost of Operations                130,551,729     121,274,722

Components of Net Cost of Operations that Will Not
Require or Generate Resources in the Current Period
  Components Requiring or Generating Resources in Future Periods:

      Increases in annual leave liability                                      66,505          76,432
      Total Components of Net Cost of Operations that
      Will Require or Generate Resources in Future Periods                     66,505          76,432
   Components Not Requiring or Generating Resources:
      Depreciation and amortization                                           262,236         237,913
      Other                                                                   129,113          (2,197)
   Total Components of Net Cost of Operations that Will Not
   Require or Generate Resources                                              391,349         235,716
Total Components of Net Cost of Operations that will not
Require or Generate Resources in the Current Period                           457,854         312,148
Net Cost of Operations                                                   $131,009,583    $121,586,870

The “Other” amount of $129,113 and $(2,197) shown in “Components Not Requiring or
Generating Resources” in Fiscal Year 2010 and Fiscal Year 2009 represents the net change
in accounts receivable from employees and a reduction in accounts receivable for the
Section 102 funds for the year.

Note 13 Requirements Payments and Grant Programs

The EAC Requirements Payments and grant programs are funded through annual
appropriations. The largest of the grant programs is the Title III of the Help America Vote Act


                                                     62
                                                          Election Assistance Commission

(HAVA) Section 251 Requirements Payments for States to help them meet HAVA
requirements. EAC periodically receives additional grant money to fund grant programs such
as Voting Technology Improvement Research Grants, and College Poll Worker and Mock
Election grants. Reflected in the Statement of Net Costs for the periods ending September
30, 2010 and September 30, 2009, are the following requirements and grant program
payments. For presentation purposes, EAC has separated Section 102 Advances Spent by
States from Section 251 Requirement Payments for FY 2009 and FY 2010.


                                                   FY 2010           FY 2009
 FY 2008 Section 251 Requirement Payments         $21,978,026       $56,958,220
 FY 2009 Section 251 Requirement Payments          30,457,959        27,972,461
 FY 2010 Section 251 Requirement Payments          29,671,329                 0
 Section 102 Advances Spent by States              33,713,042        16,031,058
 FY 2008 Data Collection Grants                     1,745,231         6,592,164
 College Poll Worker Grants                           429,841           490,952
 Mock Election Grants                                 252,371           113,157
                                                 $118,247,799      $108,158,012




                                            63
                                                              Election Assistance Commission


II.F REQUIRED SUPPLEMENTARY STEWARDSHIP
INFORMATION (Unaudited)

Non-Federal Physical Property

Stewardship investments are substantial investments made by the Federal Government for
the benefit of the nation but are not physical assets owned by the Federal Government.
When incurred, they are treated as expenses in determining the net cost of operations.
However, these items merit special treatment so that users of Federal financial reports know
the extent of investments that are made for long-term benefit. Such investments are
measured in terms of expenses incurred for non-Federal physical property, human capital,
and research and development. In October 2002, Congress passed the Help America Vote
Act (HAVA). The law recognized the need for States to invest in their election infrastructure.
A major provision of HAVA, Title III Uniform and Nondiscriminatory Election Technology and
Administration Requirements, sets forth requirements for each voting system used in an
election for Federal office.


                                 Fiscal Year        Fiscal Year     Fiscal Year
                                    2007               2008            2009
            Section 102
            Funds              $ 15,533,405         $ 2,103,632    $ 19,905,709
            Section 251
            Funds               181,694,563         358,536,246    262,018,224
            Data Collection
            Grants                       0            0      447,650
            Total             $197,227,968 $360,639,878 $282,371,583


Section 102 Funds. A total of $300.3 million has been disbursed to States under Section
102. States report, as of September 30, 2009, having spent approximately 91.1% of
Section 102 funds for a total of $273.7 million. Section 102 funds were disbursed to States
for the primary purpose of replacing punch card or lever voting machines. As such, Section
102 funds have been used to purchase physical property.

Section 251 Funds. A total of $2,400.6 million has been distributed to States under Section
251. States report, as of September 30, 2009, having spent approximately 81.0% of
Section 251 Funds for a total of $1,945.0 million. Section 251 requirements payments are
to be used only to meet the requirements of Title III Uniform and Nondiscriminatory Election
Technology and Administration Requirements. As such, Requirements Payments have been
used in part to purchase physical property but also to provide funds to States to carry out
other activities to improve administration of elections.

Data Collection Grants. In Fiscal Year 2008, EAC awarded $10.0 million in Election Data
Collection Grants to five States. These funds were to be used to improve the collection of


                                               64
                                                           Election Assistance Commission

precinct-level data relating to the November 2008 elections. Based on budgetary
information supplied by each State, Federal physical property purchased with these funds is
presented above.




                                            65
                       Election Assistance Commission




SECTION III
Other Accompanying Information




                 66
                                        Election Assistance Commission

III.A. MOST SERIOUS MANAGEMENT CHALLENGES FACING EAC ACCORDING
TO THE INSPECTOR GENERAL




                              67
     Election Assistance Commission




68
     Election Assistance Commission




69
     Election Assistance Commission




70
     Election Assistance Commission




71
     Election Assistance Commission




72
     Election Assistance Commission




73
     Election Assistance Commission




74
     Election Assistance Commission




75
     Election Assistance Commission




76
     Election Assistance Commission




77
                                         Election Assistance Commission

III.B. EAC’S RESPONSE TO THE MOST SERIOUS MANAGEMENT CHALLENGES
FACING EAC ACCORDING TO THE INSPECTOR GENERAL




                               78
     Election Assistance Commission




79
     Election Assistance Commission




80
                                                               Election Assistance Commission


III.C. IMPROPER PAYMENTS

The Improper Payments Act requires each Federal agency to assess all programs and
identify which, if any, may be subject to high risk with respect to improper payments. For
fiscal year 2010, EAC does not believe that it has any programs where the erroneous
payments could exceed 2.5 percent of program payments or $10.0 million threshold (set in
OMB Guidance) to trigger further agency action.

III.D. SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT
ASSURANCES



           SUMMARY OF FISCAL YEAR 2010 FINANCIAL STATEMENT AUDIT

Audit Opinion                           Unqualified

Restatement                             None
                                        Beginning                                     Ending
Material Weaknesses                      Balance      New   Resolved   Consolidated   Balance

     Financial Accounting & Reporting       1          0       1            0            0
          TOTAL WEAKNESSES                  1          0       1            0           0
                        SUMMARY OF MANAGEMENT ASSURANCES
Statement of Assurance                                        Qualified
(FMFIA§ 2)
Financial Management System             Systems conform to financial management system
Assurance (FMFIA§ 4)                    requirements
                                        Beginning                                    Ending
    No.           Summary                Balance    New Resolved Consolidated Balance
           Material Weaknesses
1                                           2          0       1            0            1
           (FMFIA§ 2)

                   TOTAL                    2          0       1            0           1




                                                81
     Election Assistance Commission




82
